1a
APPENDIX A
LAWN MANAGERS, INC., a Missouri
Corporation, Plaintiff-Appellee
v.
PROGRESSIVE LAWN MANAGERS, INC.,
a Missouri Corporation, Defendant-Appellant.
No. 18-2658
United States Court of Appeals,
Eighth Circuit.
Submitted: April 17, 2019
Filed: May 20, 2020
Rehearing and Rehearing En Banc
Denied June 29, 2020
Appeal from United States District Court for the
Eastern District of Missouri – St. Louis
Counsel who presented argument on behalf of the
appellant and appeared on the brief was Don V. Kelly,
of Saint Louis, MO. The following attorney also appeared on the appellant brief: Alexander Hurst, of
Saint Louis, MO.
Counsel who presented argument on behalf of the
appellee and appeared on the brief was Norah J. Ryan,
of Saint Louis, MO. The following attorney also appeared on the appellee brief: Annette P. Heller, of Saint
Louis, MO.
Before SMITH, Chief Judge, KELLY and KOBES,
Circuit Judges.

2a
KELLY, Circuit Judge.
In this trademark infringement case, Progressive
Lawn Managers, Inc., (Progressive) appeals from the
district court’s1 findings of fact and conclusions of law
after a bench trial finding it liable for trademark infringement and awarding damages to Lawn Managers,
Inc. (Lawn Managers). We affirm.
I
A
Lawn Managers and Progressive are two Missouri
lawn care businesses owned by Randy Zweifel and
Linda Smith, respectively. Prior to Smith’s incorporation of Progressive, she and Zweifel were married and
together owned and operated Lawn Managers for
nearly 20 years in the St. Louis area. In April 2012,
Zweifel and Smith divorced and entered into a marital
settlement agreement (MSA) that was incorporated
into a divorce decree issued by the Circuit Court of
Jefferson County, Missouri, the following month.
Section 5 of the MSA, which we understand to be
the parties’ trademark licensing agreement, disposed
of Zweifel’s and Smith’s interests in the Lawn Managers business. Smith agreed to assign her 50% interest
in the company to Zweifel. Zweifel would retain the
1

The Honorable David D. Noce, United States Magistrate
Judge for the Eastern District of Missouri, to whom the case was
referred for final disposition by consent of the parties pursuant to
28 U.S.C. § 636(c).

3a
corporate name of Lawn Managers, Inc., and all right,
title, and interest in the business, except for, as relevant here, some commercial and residential accounts
and business equipment specifically awarded to Smith,
who would now operate a separate business. Section
5.02 divided Lawn Managers’ then-existing accounts
and accounts receivables. It awarded “all right, title,
and interest” in certain enumerated commercial accounts to Smith; the remainder went to Zweifel. Residential accounts, in turn, were divided by zip code, with
each party receiving “all right, title, and interest in all
residential accounts and accounts receivables” contained within specified zip codes. Section 5.03 divided
between the parties various vehicles, outdoor equipment, and indoor office equipment.
Section 5.06 specified the conditions for the parties’ “Development of New Business” and provided that
the parties would share the use of the corporate name
“Lawn Managers” for a period of time. Zweifel and
Smith agreed that Zweifel would retain ownership and
control of the Lawn Managers business but that Smith
could use the corporate name “Lawn Managers” for two
years after the dissolution of their marriage by establishing a new lawn care company “using the name Progressive Lawn Managers, Inc. doing business as Lawn
Managers.” While Smith used the name Lawn Managers, she could “use the credit of Lawn Managers, Inc. to
purchase equipment for her new business,” provided
she ensured Zweifel would not be liable for her purchases. At the end of the two years, Smith would discontinue her use of the Lawn Managers name and

4a
would use only the name Progressive Lawn Managers.
The parties also agreed to a non-solicitation clause
providing that for two years after the dissolution of
their marriage, “[Smith] and her employees [would] refrain from soliciting residential accounts and commercial accounts in the zip codes that have been awarded
to [Zweifel],” and Zweifel would do the same in Smith’s
zip codes.
Not long after their divorce was finalized, Zweifel
and Smith commenced divorce-related litigation in
state court. Smith filed her first motion for contempt
against Zweifel in early 2013, followed by cross-motions filed by each party. On July 25, 2014, Zweifel and
Smith settled their cross-motions through a written
agreement that changed a few terms of the licensing
agreement. The Settlement Agreement extended
Smith’s ability to use the Lawn Managers name to December 31, 2014. It also changed the parties’ limitations on obtaining new business. The parties could now
sign up and service new commercial accounts regardless of zip code, but they could not “sign up or service
any new residential accounts in the zip codes awarded
to the other in their divorce settlement. . . .” The Settlement Agreement specified that “[t]his non compete
agreement shall remain in effect for two years from
[July 25, 2014,] and is enacted in lieu of the prior nonsolicitation clause found in [§] 5.06 of the [licensing
agreement].”
As contemplated by the licensing agreement,
Zweifel continued to operate the Lawn Managers business, and Smith began operating Progressive using

5a
both the name Progressive Lawn Managers and,
simply, Lawn Managers. Smith’s company used the
two names in advertisements, business materials, and
representations to third parties. Some employees who
worked for Lawn Managers before the divorce went to
work for Smith. The public, however, did not know of
Zweifel and Smith’s divorce or the terms of the licensing agreement.
In February 2015, after Smith was to stop using
the Lawn Managers name, Lawn Managers registered
the word mark “Lawn Managers” with the U.S. Patent
and Trademark Office. Later that year, Lawn Managers sent Progressive a letter stating that it considered
Progressive’s logo to infringe on the Lawn Managers
mark. Progressive did not make any changes to its
logo.
B
Lawn Managers sued Progressive in February 2016,
asserting one count of federal trademark infringement
under the Lanham Act, see 15 U.S.C. § 1114, and seeking injunctive and monetary relief. Progressive counterclaimed, asserting one count of cancellation of the
trademark registration by virtue of “naked licensing.”
As relevant here, Progressive also raised the affirmative defense of unclean hands.
After a bench trial, the district court entered judgment in favor of Lawn Managers. The court found
that through the licensing agreement, Zweifel had
granted a license to Smith to use the Lawn Managers

6a
trademark, and that the license had not been a naked
license. Next, it found that Progressive had infringed
on the Lawn Managers mark after the expiration of the
license on December 31, 2014. As relevant here, the
court found that Progressive continued to use the mark
in commerce after that date without consent and, that
between 2012 and 2015, there was “constant and obvious consumer confusion, due to the post-divorce proceedings and the resulting . . . license agreement.” And
the district court found that after the expiration of the
license, “[Progressive] did not make a good-faith effort
to dissipate confusion, but acted to deliberately exacerbate any consumer confusion with the intent of profiting from [Lawn Managers’] accrued consumer goodwill
for as long as possible.”
The district court entered an injunction and
awarded Lawn Managers damages of $80,688—comprising a percentage of Progressive’s profits during the
relevant time period—and $71,346 for corrective advertising. In calculating its damages award, the court
rejected Progressive’s unclean hands defense. In a
post-trial order, the court also awarded Lawn Managers $138,925 in attorney’s fees.
II
On appeal, Progressive does not contest the district court’s finding of infringement. But it argues that
the issue should not have been reached because
Zweifel granted a naked license to Smith, resulting in
the abandonment of the Lawn Managers mark. In the

7a
alternative, Progressive argues that the district court
improperly rejected its unclean hands defense and
abused its discretion in its award of damages. After a
bench trial, we review the district court’s legal conclusions de novo and its factual findings for clear error.
Urban Hotel Dev. Co., Inc. v. President Dev. Grp., L.C.,
535 F.3d 874, 879 (8th Cir. 2008).
A
“As a general matter, trademark owners have a
duty to control the quality of their trademarks.”
FreecycleSunnyvale v. Freecycle Network, 626 F.3d
509, 515 (9th Cir. 2010). “The purpose of the qualitycontrol requirement is to prevent the public deception
that would ensue from variant quality standards under the same mark. . . .”2 Taco Cabana Int’l, Inc. v. Two
Pesos, Inc., 932 F.2d 1113, 1121 (5th Cir. 1991), aff ’d on
other grounds sub nom. Two Pesos, Inc. v. Taco Cabana,
Inc., 505 U.S. 763 (1992); see, e.g., Syntex Labs., Inc. v.
Norwich Pharmacal Co., 315 F. Supp. 45, 56 (S.D.N.Y.
1970) (emphasizing that “the purpose of the control requirement is to avoid the danger that the public may
be deceived as to the quality of a product sold under a
recognized name” (emphasis added)), aff ’d, 437 F.2d
566 (2d Cir. 1971). Naked licensing occurs when a
trademark owner licenses a mark without exercising
2

Notably, “`quality control’ does not necessarily mean that
the licensed goods or services must be of `high’ quality, but merely
of equal quality, whether that quality is high, low or middle.”
Barcamerica Int’l USA Tr. v. Tyfield Imps., Inc., 289 F.3d 589,
598 (9th Cir. 2002) (cleaned up).

8a
sufficient quality control over the services provided
under the mark. See, e.g., Stanfield v. Osborne Indus.,
Inc., 52 F.3d 867, 871 (10th Cir. 1995), abrogated on
other grounds by Lexmark Int’l, Inc. v. Static Control
Components, Inc., 572 U.S. 118 (2014); FreecycleSunnyvale, 626 F.3d at 515–16. “[Naked licensing] is
inherently deceptive and constitutes abandonment of
any rights to the trademark by the licensor.” Stanfield,
52 F.3d at 871 (cleaned up).
To succeed on a claim of naked licensing, a party
must establish that the licensor did not retain sufficient control over its licensee to guarantee consistent
quality of the services provided under the mark. See,
e.g., id. Because a finding of naked licensing results in
involuntary trademark abandonment and the forfeiture of trademark rights, the party claiming insufficient control must prove it by clear and convincing
evidence. See Cmty. of Christ Copyright Corp. v. Devon
Park Restoration Branch of Jesus Christ’s Church, 634
F.3d 1005, 1010 (8th Cir. 2011). This is a “stringent
standard.” Taco Cabana, 932 F.2d at 1121; see also,
e.g., Ky. Fried Chicken Corp. v. Diversified Packaging
Corp., 549 F.2d 368, 387 (5th Cir. 1977). Determining
“whether the control exercised by the licensor is sufficient under the circumstances to satisfy the public’s
expectation of quality assurance arising from the presence of the trademark on the licensee’s goods or services” is a fact-specific inquiry, as “[t]he standard of
quality control and the degree of necessary inspection
and policing by the licensor will vary with the wide
range of licensing situations in use in the modern

9a
marketplace.” 3 J. Thomas McCarthy, McCarthy on
Trademarks and Unfair Competition § 18:55 (5th ed.
2017) [hereinafter McCarthy] (cleaned up); see, e.g.,
Eva’s Bridal Ltd. v. Halanick Enters., Inc., 639 F.3d
788, 790–91 (7th Cir. 2011) (explaining that how much
control is “enough can’t be answered generally; the
nature of the business, and customers’ expectations,
both matter”).
To determine whether a licensor exercises sufficient control, and so may enforce the terms of the
trademark’s use, courts evaluate whether the licensor
“(1) retained contractual rights to control the quality
of the use of its trademark; (2) actually controlled the
quality of the trademark’s use; or (3) reasonably relied
on [the licensee] to maintain the quality.” FreecycleSunnyvale, 626 F.3d at 512 n.1; accord Stanfield, 52
F.3d at 871–72 (applying the same factors). The district
court found, and the parties do not dispute, that the
licensing agreement in this case contained no express
contractual right of control and that there was no evidence of actual control by Lawn Managers. This appeal
therefore turns on whether, as the district court found
was the case here, the licensor could reasonably rely
on the licensee to maintain the quality of the services
sold under the licensor’s mark.
Courts have found that a licensor may reasonably
rely on a licensee for quality control where the parties
have enjoyed a long-term professional association,
often termed a “special relationship.” See 3 McCarthy
§ 18:57. In finding reasonable reliance, these courts
have also stressed the lack of evidence showing

10a
deviant quality in the products or services provided by
the licensee. For example, in Land O’Lakes Creameries, Inc. v. Oconomowoc Canning Co., the Seventh Circuit rejected a naked licensing claim where the
licensor and licensee enjoyed a 40-year relationship
and there had been “no complaints about the quality of
the goods” during that time. 330 F.2d 667, 670 (7th Cir.
1964). Likewise, in Taco Cabana, the Fifth Circuit rejected a naked licensing claim against two brothers
who had cross-licensed their trade dress to one another
for use in separate restaurants, but whose licensing
agreement did not include any formal provisions establishing quality control. 932 F.3d at 1121. The court
held that the brothers could reasonably rely on each
other to maintain consistent quality because they had
enjoyed a close working relationship for eight years
and were intimately familiar with the standards and
procedures necessary to ensure consistent quality. Id.
at 1121–22. Similarly, in Transgo, Inc. v. Ajac Transmission Parts Corp., the Ninth Circuit rejected an
abandonment claim against a licensor, finding adequate control where the licensor had a relationship
with the licensee going back ten years, manufactured
90% of components sold by the licensee, and “believed
that [licensee] was second only to [the licensor] himself
in overall knowledge and ability in product development for th[e] market.” 768 F.2d 1001, 1017–18 (9th
Cir. 1985).
On this record, we agree with the district court
that Progressive has not met its high burden of proving that Lawn Managers abandoned its mark through

11a
naked licensing. The district court properly found that
Zweifel could reasonably rely on Smith’s own quality
control efforts and thus met the duty of control as licensor.
Of crucial importance in this case are the unique
circumstances surrounding the licensing agreement.
The licensing agreement was the result of a divorce
and provided that Zweifel and Smith would, in effect,
operate parallel, almost identical companies using
the same name3 and similar equipment and vehicles
but in different zip codes. The licensing agreement
split property, such as trucks and various lawn equipment, between Lawn Managers and Progressive.
Among other things, it also provided that Smith could
use Lawn Managers’ credit to purchase equipment for
her new business. In essence, then, the licensing agreement provided that Zweifel and Smith would operate
virtually the same business for a fixed period of time,
or as Progressive asserts on appeal, that Progressive
would “impersonate” Lawn Managers for the duration
of the license period. After the licensing period terminated, so too did Smith’s permission to use the name
Lawn Managers.
These terms, combined with the couple’s successful operation of the Lawn Managers business for over
17 years and the lack of any evidence of quality deviations at Progressive, are sufficient to support the
district court’s finding of reasonable reliance. It is
3

Smith was to use Progressive Lawn Managers, doing business as Lawn Managers.

12a
reasonable to expect that Smith was familiar with the
standards and procedures used to control quality at
Lawn Managers, and that she would use those same
standards and procedures at Progressive for the specified period after the divorce. Indeed, as the district
court found, “[t]he work crews employed by [Progressive] had previously been employed by [Lawn Managers] and made use of the same procedures and
equipment they had always used.” The carryover of
workers from Lawn Managers to Progressive indicated
a continuity of services, and there is no evidence in the
record that the services provided by Progressive differed in quality from those provided by Lawn Managers. To the contrary, Lawn Manager’s crews “observed
the work being done by [Progressive’s] crews and observed and reported that the work [they] performed . . .
was consistent with [Lawn Managers’] standards.” Under these circumstances, “we would depart from the
purpose of the law to find an abandonment simply for
want of all the inspection and control formalities” appropriate in cases involving more formal licensing
transactions. Taco Cabana, 932 F.2d at 1121.
Further, the district court’s findings of fact and
conclusions of law paint a picture of Smith, at Progressive, doing her best to emulate Zweifel and Lawn
Managers. Smith used an advertisement video on her
website that described Progressive as having been in
business for a number of years. This was not true, but
the statement is evidence that Progressive intended
to hold itself out as Lawn Managers and to advertise
the same quality of services that Lawn Managers had

13a
always provided. Moreover, Smith was operating Progressive in the same geographic area as Lawn Managers, and Lawn Manager employees were in a position
to observe that Progressive’s work was consistent
with Lawn Managers’ standards. Lawn Managers
could reasonably rely on Smith’s quality control efforts
and conclude that the services offered by Progressive
were “of equal quality.” Barcamerica, 289 F.3d at 598.
This conclusion aligns with the consensus of our
sister circuits. A licensor’s confidence in the licensee’s
ability to maintain quality, without more, may not be
sufficient to show reasonable reliance.4 But courts
have consistently concluded that a “special relationship” can confer adequate quality control. Stanfield 52
F.3d at 867 (“In cases in which courts have found that
a licensor justifiably relied on a licensee to quality control, some special relationship existed between the parties. . . . [In this case] in contrast, the relationship . . .
was neither close nor successful.”). Accord FreecycleSunnyvale, 626 F.3d at 518 (citing Barcamerica, 289
F.3d at 597); Land O’Lakes, 330 F.2d 667 (no naked license when company’s name was on the label and
there were no complaints about the quality of the
goods during the forty years of the license agreement).
4

See, e.g., FreecycleSunnyvale, 626 F.3d at 519 (“Because
sole reliance on a licensee’s own control quality [sic] efforts is not
enough to overcome a finding of naked licensing without other indicia of control, and because [the licensor] lacked a close working
relationship with [the licensee] and failed to show any other indicia of actual control, we conclude that [the licensor] could not
rely solely on [the licensee’s] own quality control efforts.” (internal
citation omitted).

14a
Here, Zweifel and Smith had a long, close, and successful relationship operating Lawn Managers together.
They were later bound by the MSA to continue operating parallel lawn care businesses for a comparatively
short period of time after their divorce. The district
court did not err in concluding that, under the circumstances, the “business relationship between Zweifel
and Smith was more than sufficient to give [Lawn
Managers] reasonable assurance of the quality of service [Progressive] would provide to customers.”
In urging us to reach a contrary conclusion, Progressive argues that Zweifel could not reasonably rely
on Smith’s own quality control efforts because his relationship with Smith was adversarial, as evidenced by
the contempt proceedings in state court. But there is
no evidence in the record that the companies Zweifel
and Smith run—Lawn Managers and Progressive—
were adversarial toward one another in ways that
would affect the quality of the parties’ lawn care services. Indeed, even though Zweifel testified that he was
not in a position to ask Smith whether he could oversee
the quality at Progressive—because they “were not
talking at that time”—there is evidence in the record
that others at Lawn Managers were keeping an eye on
Progressive’s work. Scott Hewett, Lawn Managers’s
general manager, testified that he had observed the
quality of Progressive’s work and concluded that “the
lawns seemed good, they seemed fine.” Zweifel and
Smith’s personal relationship, post-divorce, appears
from the record to have been acrimonious. But this,
standing alone, is not sufficient to conclude that Lawn

15a
Managers could not rely on Smith’s business-related
expertise and experience to maintain the quality of
Progressives’ lawn services during the life of the MSAmonitored license agreement.
In light of the particular facts and circumstances
in this record, the district court did not err in finding
that Progressive failed to meet its stringent burden of
proving a naked license. See Barcamerica, 289 F.3d at
596.
B
Progressive next argues that the district court improperly denied its unclean hands defense. We review
the district court’s decision to deny an equitable defense for an abuse of discretion. Sturgis Motorcycle
Rally, Inc. v. Rushmore Photo & Gifts, Inc., 908 F.3d
313, 343 (8th Cir. 2018); see Levi Strauss & Co. v.
Shilon, 121 F.3d 1309, 1313 (9th Cir. 1997).
The defense of unclean hands may be invoked
when the plaintiff has “engaged in ‘willful act[s] concerning the cause of action which rightfully can be said
to transgress equitable standards of conduct.’ ” Sturgis,
908 F.3d at 344 (alteration in original) (quoting Precision Instrument Mfg. Co. v. Auto. Maint. Mach. Co., 324
U.S. 806, 815 (1945)). Before the district court, Progressive argued that Lawn Managers had unclean hands
because it sent a “We Want You Back” mailer in late
July 2016 to approximately 2,000 of Progressive’s customers. According to Progressive, the licensing agreement awarded these customer accounts to Smith in

16a
perpetuity, and Lawn Managers was prohibited from
ever soliciting those customers. The district court rejected Progressive’s assertion, concluding that the licensing agreement unambiguously provided that after
July 25, 2016—when the parties’ non-compete clause
expired—Lawn Managers was entitled to renew advertising to all customers.
The district court’s rejection of Progressive’s unclean hands defense turns on the interpretation of the
licensing agreement, which is an issue we review de
novo. In re Fitzgerald Marine & Repair, Inc., 619 F.3d
851, 858 (8th Cir. 2010). Under Missouri law, which the
parties agree applies here, “[t]he cardinal rule in the
interpretation of a contract is to ascertain the intention of the parties and to give effect to that intention.”
J. E. Hathman, Inc. v. Sigma Alpha Epsilon Club, 491
S.W.2d 261, 264 (Mo. banc 1973). If the contract is unambiguous, “the intention of the parties is to be gathered from it and it alone.” Id. “A contract is ambiguous
only when it is reasonably susceptible of different constructions”; mere disagreement between the parties as
to construction does not render the contract ambiguous. Id.
Like the district court, we conclude that there is
no relevant ambiguity in the licensing agreement
and that Lawn Managers was permitted to send the
“We Want You Back” mailer in July 2016. The licensing
agreement originally contained a non-solicitation
clause in § 5.06 that was to be in effect for two years
after the parties’ divorce. This clause, however, was replaced entirely by a non-compete agreement contained

17a
in the parties’ July 25, 2014, Settlement Agreement.
This non-compete agreement provides:
[The p]arties agree that each of them shall not
sign up or service any new residential accounts in
the zip codes awarded to the other in the [licensing
agreement]. This non compete agreement shall remain in effect for two years from today’s date and
is enacted in lieu of the prior non-solicitation
clause found in [§] 5.06 of the [licensing agreement]. . . .
(Emphasis in original). By its plain language, then,
the Settlement Agreement provided that the only restriction placed on Zweifel with respect to competition
for customer accounts was that, through July 25, 2016,
he could not “sign up or service any new residential accounts” in the zip codes encompassing the residential
accounts that had been awarded to Smith in § 5.02.
And there is nothing else in the licensing agreement
that can reasonably be interpreted to place any other
limits on the parties’ solicitation of any accounts.
Progressive nevertheless argues that Lawn Managers could not solicit certain accounts even after July
25, 2016. Progressive’s sole assertion is that the initial
division of accounts in § 5.02 effectively gave Smith a
perpetual property interest in certain customer accounts, and that those accounts thus remained offlimits to Zweifel forever. But § 5.02 merely divided the
customer accounts of the pre-divorce Lawn Managers
business. It states only that “[Smith] is awarded all
right, title, and interest” in certain commercial accounts and that “[she] is awarded all right title, and

18a
interest in all residential accounts and accounts receivables of the corporation in the [listed] zip codes.”
By its plain language, this initial division of assets is
wholly unrelated to restrictions on solicitation or competition.5 And Progressive points to nothing in the rest
of the licensing agreement that prohibited the parties
from eventually competing for the accounts initially divided up in § 5.02. “[A] court’s duty is confined to the
interpretation of the contract which the parties have
made for themselves, . . . and a court may not read into
a contract words which the contract does not contain.”
Textor Const., Inc. v. Forsyth R-III Sch. Dist., 60 S.W.3d
692, 698 (Mo. Ct. App. 2001) (cleaned up). Accordingly,
the district court was within its discretion to conclude
that the Lawn Managers mailer did not support Progressive’s unclean hands defense.6
C
Progressive next argues that the district court
clearly erred in awarding to Lawn Managers $80,688
of Progressive’s profits—constituting 25% of Progressive’s total profits during the relevant time period—
5

Progressive’s contrary argument—to which it devotes much
of its brief—that the accounts divided in § 5.02 constituted marital property and therefore could never be solicited again, misapprehends that this is a trademark infringement action in federal
court, and that its unclean hands defense turns on the language
of the licensing agreement before us.
6
Progressive also challenges the district court’s finding that
there was no other evidence in the record supporting its unclean
hands defense. Based on our thorough review of the record, this
finding is not clearly erroneous.

19a
and $71,346 for corrective advertising. “In a bench
trial, ascertaining the plaintiff ’s damages is a form of
factfinding that can be set aside only if clearly erroneous.” Hall v. Gus Const. Co., 842 F.2d 1010, 1017 (8th
Cir. 1988). Under that standard of review, we will reverse “only if we are ‘left with the definite and firm
conviction that a mistake has been committed.’ ” Id. at
1013 (quoting Anderson v. City of Bessemer City, 470
U.S. 564, 573 (1985)).
The district court did not clearly err in its damages
award. In an action for trademark infringement, a
plaintiff may recover, “(1) defendant’s profits, (2) any
damages sustained by the plaintiff, and (3) the costs of
the action.” 15 U.S.C. § 1117(a); see Tonka Corp. v.
Tonk-A-Phone, Inc., 805 F.2d 793, 794 (8th Cir. 1986).
In awarding Lawn Managers $80,688 of Progressive’s
profits, the district court first found—based on expert
reports and Progressive’s tax returns and financial
statements—that Progressive’s total profits during the
relevant time period were $322,753. On appeal, Progressive argues that the district court’s starting point
should have been lower, because, among other things,
the parties were bound by a non-compete agreement
for some months after the license expired. As a result,
Progressive asserts, Lawn Managers did not lose any
business due to the infringement during that period.
But in a trademark case, the defendant bears the burden of proving any claimed deductions from total
profits. See § 1117(a) (“In assessing profits the plaintiff
shall be required to prove defendant’s sales only; defendant must prove all elements of cost or deduction

20a
claimed.”); see also 5 McCarthy § 30:65 (“[I]t is the infringer’s burden to prove any proportion of his total
profits which may not have been due to use of the infringing mark.”). And the district court found that Progressive had not submitted any credible evidence
supporting its proposed reductions. Progressive points
to nothing in the record that renders this finding
clearly erroneous. But even more damaging to Progressive’s position, in the end, is that the district court did
consider Progressive’s claimed causation problems.
The district court awarded to Lawn Managers only
25% of Progressive’s total profits, finding that an
award in the full amount of $322,753 would be excessive for two reasons: (1) it was “difficult to trace causation from confused customers to an infringing act of
[Progressive] instead of to [Lawn Managers’] two-year
license”; and (2) from the expiration of the license on
January 1, 2015, to July 25, 2016, the parties were under a non-compete agreement. The district court’s reduction was within its power to consider equitable
principles in awarding damages, see § 1117(a) (Lanham Act monetary remedies are “subject to the principles of equity”), and we find no clear error in the
district court’s award.
We reach a similar conclusion with respect to the
court’s corrective advertising award. Courts have approved monetary awards to plaintiffs for “corrective
advertising” under the general rubric of “compensatory
damages.” See, e.g., Big O Tire Dealers, Inc. v. Goodyear
Tire & Rubber Co., 561 F.2d 1365, 1374–76 (10th Cir.
1977). “The purpose of general compensatory damages

21a
is to make the plaintiff whole.” Id. at 1374. A trademark infringer “diminishes the value of plaintiff ’s
trademark, and advertising restores that mark to its
original value.” Zazu Designs v. L’Oreal, S.A., 979 F.2d
499, 506 (7th Cir. 1992).
In its award for corrective advertising, the district
court credited Lawn Managers’ expert, economist Fernando Torres, who opined that “a reliable estimate of
the cost of a corrective advertising campaign to redress
[the wrongful marketing impressions created by Progressive’s infringing conduct] . . . would be the cost of
mailing a flyer” to households in the zip codes encompassing the accounts Smith was awarded in § 5.02 of
the licensing agreement and that opened up to competitive activity after the expiration of the non-compete
restriction in July 2016. According to Torres, the total
cost for this corrective advertisement was $71,346. On
appeal, Progressive argues that Torres’s estimate was
flawed because it did not explicitly consider how many
of the households in those zip codes had ever seen Progressive’s infringing advertisements or had ever used
Progressive’s services. Additionally, it argues, Torres
“could not say” how many of these households had a
yard or had ever seen a mailer in the past. But “[m]ere
difficulty in calculating damages is not sufficient reason to deny relief, as we have repeatedly stressed that
some uncertainty in damages should not work to bar a
plaintiff from recovering from a proved wrongdoer.”
WWP, Inc. v. Wounded Warriors Family Support, Inc.,
628 F.3d 1032, 1044 (8th Cir. 2011) (cleaned up). We

22a
find no clear error in the district court’s award for corrective advertising.7
Accordingly, the judgment of the district court is
affirmed.
KOBES, Circuit Judge, dissenting.
No one thinks the Marital Separation Agreement
(MSA) is a model trademark transaction. It emerged
from a contentious divorce of two people who lived and
worked side-by-side for more than 17 years. The MSA
tried to walk a fine line by giving each spouse their
sweat equity in Lawn Managers and preserving their
livelihood. But the catch is that trademarks are also
public rights. When the mark holder abuses the mark
by deceiving the public, those rights are lost.
“A trademark carries with it a message that the
trademark owner is controlling the nature and quality of the goods or services sold under the mark.” 3
McCarthy on Trademarks and Unfair Competition
§ 18:48 (5th ed. 2017). The court holds that
Zweifel/Lawn Managers did not grant a naked license
because he could reasonably rely on his former
spouse’s (Smith/Progressive) quality control efforts.

7

In a single footnote in its opening brief, Progressive asserts
that the district court’s award of attorney’s fees in favor of Lawn
Managers was improper. But because Progressive did not meaningfully argue this point in its opening brief, it has waived it. See,
e.g., United States v. Stanko, 491 F.3d 408, 415 (8th Cir. 2007);
Chay-Velasquez v. Ashcroft, 367 F.3d 751, 756 (8th Cir. 2004).

23a
Zweifel admitted, though, that there was “no way possible” for him to control quality.
This extends the “reasonable reliance” doctrine too
far. A close working relationship may substitute for
formal controls, but a prior relationship is insufficient
without some indicia of control. FreecycleSunnyvale v.
Freecycle Network, 626 F.3d 509, 518–19 (9th Cir.
2010). This is the first time a court has approved a license without an ongoing relationship to monitor and
prevent misleading uses of the mark. Our sister circuits have found that a licensor who does “not retain
any control” has engaged in naked licensing and forfeited its rights. Eva’s Bridal Ltd. v. Halanick Enterprises, Inc., 639 F.3d 788, 791 (7th Cir. 2011) (emphasis
in original); Barcamerica Int’l USA Tr. v. Tyfield Importers, Inc., 289 F.3d 589, 597 (9th Cir. 2002) (naked
licensing when licensor fails to “demonstrate[ ] any ongoing effort to monitor quality”); Stanfield v. Osborne
Indus., Inc., 52 F.3d 867, 872 (10th Cir. 1995) (naked
licensing when parties have adversarial relationship
during license). I would not break from this consensus.
Nor does licensee estoppel apply. Our precedent
only bars a licensee from challenging the mark during
the life of the license. Lawn Managers requests damages for infringement after the license expired, and the
license caused consumer confusion, so Progressive is
not estopped from asserting a naked licensing defense.

24a
I.
If a licensor that does not take reasonable steps
“to prevent misuses of his trademark in the hands of
others the public will be deprived of its most effective
protection against misleading uses of a trademark.”
Dawn Donut Co. v. Hart’s Food Stores, Inc., 267 F.2d
358, 367 (2d Cir. 1959). Although the court’s decision
accurately recites the applicable standards, it concludes that a licensor has sufficient control by having
none at all. This fails to protect the public from naked
licensing—a practice that “is inherently deceptive and
constitutes abandonment of any rights to the trademark by the licensor.” Barcamerica, 289 F.3d at 598
(citation omitted).
The cases the court relies on all show some form
of licensor control. None hold that a defunct, adversarial business relationship is sufficient. The mark holder
in Transgo made 90% of the components in the trademarked “Shift Kits,” and therefore relied on its “own
quality control procedures at its plant.” Transgo, Inc. v.
Ajac Transmission Parts Corp., 768 F.2d 1001, 1017
(9th Cir. 1985). Further, the mark holder and the licensee conferred on modifications to existing parts and the
development of new products to be sold under the
trademark. Id. In Taco Cabana Int’l, Inc. v. Two Pesos,
Inc., 932 F.2d 1113 (5th Cir. 1991), a jury found “Taco
Cabana exercises adequate supervision and control
over TaCasita.” 932 F.2d at 1117. Although it opined
that the “purpose of the quality-control requirement”
is quality not policing, the Fifth Circuit acknowledged

25a
“record evidence of at least some bilateral quality monitoring.” Id. at 1121.
The Seventh Circuit has found reasonable reliance
when the licensor appeared on the label and the long
history without complaints. Land O’Lakes Creameries,
Inc. v. Oconomowoc Canning Co., 330 F.2d 667, 670
(7th Cir. 1964). But the district court earlier found
that the licensor had “retained the right of supervision
over all labels and products bearing the mark.” Land
O’Lakes Creameries, Inc. v. Oconomowoc Canning Co.,
221 F. Supp. 576, 581 (E.D. Wis. 1963). The district
court held that the “practice of the parties and the contract conditions render the license arrangement more
than a naked license.” Id.
Taken together, the cases cited by the court allow
reasonable reliance through a “special relationship”
when the mark holder had some control over the products. Here, the court holds that a “special relationship”
alone confers adequate quality control. Maj. Op. 91011. And the court does not acknowledge the further
step it takes today: allowing a licensor to rely on the
licensee because of a past relationship that has gone
bad.
The court finds that Zweifel could reasonably rely
on Smith because the license ensured that they “would
operate the same business for a fixed period of time.”
Maj. Op. 910. This is besides the point because Zweifel
did not retain “the right to control the nature and quality of defendant’s use of the mark.” Lawn Managers,
Inc. v. Progressive Lawn Managers, Inc., 390 F. Supp.

26a
3d 975, 982 (E.D. Mo. 2018). The three-sentence license
merely permitted Progressive to “do[ ] business as
Lawn Managers” and allowed Smith to “use the name
Lawn Managers for” two years after the divorce. Add.
15–16. It did not limit or guide Progessive’s choices in
offering services, training employees, purchasing
equipment, or adhering to quality standards.
The court also holds that Progressive “has not met
its high burden” to prove naked licensing by overlooking key evidence. Maj. Op. 909. When asked whether
he had approached Smith (or anyone at Progressive)
about the quality of their services, Zweifel testified,
“No. We were not talking at that time. There was no
way possible to approach her like that.” D. Ct. Dkt. 109,
10/30/17 Tr. 115:23–116:3 (emphasis added). Zweifel
claimed, by “looking at her most recent website,” that
Smith “offers the exact same” treatments. Id. at 76:2–
5. Smith, however, explained that “I change my product
and my applying at different times per what we’re
learning every year.” D. Ct. Dkt. 110, 10/31/17 Tr.
125:19–126:1. Lawn Managers’s general manager,
Scott Hewett, testified that although he had observed
lawns Progressive had serviced, he stopped supervising Progressive employees “right at the time of the separation.” Id. at 41:22–42:3. There is no evidence that
Lawn Managers “made any effort to supervise defendant’s work.” Lawn Managers, 390 F. Supp. 3d at 983.
Progressive did more than show Lawn Managers’s
lacked sufficient control, it proved the “extreme case”
where the licensor had none. Eva’s Bridal Ltd., 639
F.3d at 791.

27a
Trying to show evidence of some oversight, the
court notes that “others at Lawn Managers were keeping an eye on Progressive’s work.” Maj. Op. 911. Yet
it cites no case where casual observation, without an
ongoing relationship, is sufficient to permit the mark
holder to reasonably rely on the licensee. And in
Barcamerica, the court rejected the mark holder’s assertion of quality control through informal wine tastings. 289 F.3d at 598. “What matters is that [the mark
holder] played no meaningful role in holding the [product] to a standard of quality.” Id.
As a result, the court approves a license that
caused “constant and obvious consumer confusion.”
Lawn Managers, 390 F. Supp. 3d at 979. Customers
were dumbfounded when they were told that Lawn
Managers “can’t service your ZIP Code” as “Lawn Managers” trucks drove through their neighborhood. Id.
And more “confusion manifested itself in phone calls to
one party meant for the other party and checks that
had to be hand-sorted to make sure they went to the
correct company.” Id. Progressive impersonating Lawn
Managers without any guarantee that the goods and
services were the same is the very harm to the public
that trademarks seek to prevent. Because the license
deceived the public Lawn Managers forfeits the mark.
II.
The court’s decision is also hard to square with
those of our sister circuits that require the mark holder
to show some indicia of control and oversight through

28a
an ongoing relationship. The court does not dispute
that Zweifel had no relationship with Smith after the
divorce and any oversight was limited to casual observation. I cannot agree that a licensor who admitted he
did not talk to the licensee somehow maintained a special relationship that permits a court to infer an indicia
of control over quality.
The Seventh Circuit rejected a similar licensing
scheme in Eva’s Bridal. There, a family-owned dress
shop licensed its name to the owner’s siblings after the
siblings purchased a location that they had operated
for eight years. Eva’s Bridal Ltd. v. Halanick Enterprises, Inc., No. 07 C 1668, 2010 WL 9921849 *2 (N.D.
Ill. Aug. 4, 2010). The relevant agreement only required payment of $75,000 per year to use the “Eva’s
Bridal” name and marks. Eva’s Bridal Ltd., 639 F.3d at
789. After the agreement expired, the siblings stopped
paying the royalty but continued using the mark. Id.
The mark holders brought an infringement action five
years later. The district court dismissed the suit because it held that plaintiffs had abandoned the mark
by granting a naked license. Id. Specifically, it found
that the agreement had no quality control provisions
and that plaintiffs had “never tried to control any aspect of how defendants’ shop operated or how the mark
was used.” Id. at 790.
The Seventh Circuit affirmed, explaining that the
“supervision required for a trademark license is the
sort that produces consistent quality.” Id. (emphasis in
original). Although the amount of control is a factual
question, the Seventh Circuit found that it was

29a
unnecessary to decide that “because plaintiffs did not
retain any control—not via the license agreement, not
via course of performance.” Id. at 790–91 (emphasis in
original). It was the “paradigm of a naked license” because the mark holder had “no authority over the appearance and operations of defendants’ business, or
even over what inventory to carry or avoid.” Id. at 791
(emphasis in original).
The Ninth and Tenth Circuits have also required
an indicia of control without an ongoing relationship.
Barcamerica, 289 F.3d at 596; Stanfield, 52 F.3d at 872.
In Stanfield, an inventor of a fiberglass heating pad for
newborn hogs received royalties from the manufacturer
and later sold the rights to use “Stanfield” for 15 years.
52 F.3d at 869. Shortly after signing the licensing
agreement, the inventor resigned from the company
and had no contact with it except for litigation over
royalty payments and the trademark. Id. at 870. The
Tenth Circuit affirmed the district court’s naked license
finding because there was no express quality control
provision or actual control and the only relationship
between the parties existed in court.8 Id. at 871–72.
8

The court notes that Lawn Managers and Progressive (the
companies vis à vis Zweifel and Smith) were not “adversarial in
ways that would affect the quality of the parties’ lawn care services.” Maj. Op. 911. But the Tenth Circuit did not find an adversarial relationship because the quality of the pig heating pads had
suffered. The relationship was adversarial because the parties
had no working relationship and a history of lawsuits. Stanfield,
52 F.3d at 871–72. Here, there was no working relationship and
the contempt lawsuits centered on Lawn Managers violating the
MSA by competing for Progressive’s clients. See Maj. Op. 911–13.

30a
Likewise, the Ninth Circuit rejected a vineyard’s
licensing scheme where the “sole evidence” of the mark
holder’s quality control was random wine tastings and
reliance on the licensee’s reputation. Barcamerica, 289
F.3d at 596. Even though the wine tastings “perhaps
demonstrate a minimal effort to monitor quality,” id. at
597, the Ninth Circuit expected the mark holder “to
sample (or to have some designated wine connoisseur
sample) on an annual basis, in some organized way,
some adequate number of bottles of the Renaissance
wines which were to bear Barcamerica’s mark to ensure that they were of sufficient quality,” id. at 598. It
held that a mark holder with no “involvement whatsoever regarding the quality of the wine and maintaining
it at any level” engages in naked licensing. Id. at 597.
As the court points out, the Ninth Circuit’s decision in
FreecycleSunnyvale prohibited the licensor to rely on
the licensee because there was no close working relationship (and never had been) and the licensor failed
to show any other indicia of actual control. Maj. Op.
910-11 n.4. The Ninth Circuit explained that “[o]ther
circuits have also relied on the licensor’s confidence in
the licensee only where there were additional indicia
of control.” 626 F.3d at 519 n.7. I agree with our sister
circuits and would require Lawn Managers to show
some indicia of control.
III.
Because the mark has been abandoned due to naked licensing, I also address the claim that licensee
estoppel bars Progressive’s naked licensing defense.

31a
Lawn Managers argues that “a plaintiff-licensee is
estopped from contesting the validity of its licensor’s
marks,” citing Seven Up Bottling Company v. Seven Up
Co., 561 F.2d 1275 (8th Cir. 1977) (citing Heaton Distrib. Co. v. Union Tank Car Co., 387 F.2d 477, 482 (8th
Cir. 1967)). This court has been reluctant to apply licensee estoppel broadly. “Licensee estoppel precludes
only licensees of a mark from contesting it,” Sturgis
Motorcycle Rally, 908 F.3d 313, 321, (8th Cir. 2018), and
“covers only the mark that the licensee has agreed to
use,” id. at 322. I would follow this narrow view of
estoppel.
Our precedent establishes only that a current licensee cannot challenge the validity of a mark during
the life of the license. In Seven Up, we explained that
“the establishment of an existing licensor-licensee relationship between [licensor] and [licensee] effectively
constitutes an insuperable bar to recovery by [licensee]
with regard to its trademark claims.” 561 F.2d at 1279.
But there, the licensee “ha[d] established the existence
of a present and valid licensing agreement between
plaintiff and defendant.” Id. (emphasis added). Nor
does the Heaton decision’s statement that a licensee
“would be estopped to claim” a mark is invalid bind us.
387 F.2d at 482. There, the court merely enforced a nocontest provision against a licensee. Id. The court had
no occasion to decide if licensee estoppel applied “in the
absence of ” that provision. Id. As a result, the estoppel
statement is “unnecessary to the decision in the case

32a
and therefore not precedential.”9 Shephard v. United
States, 735 F.3d 797, 798 (8th Cir. 2013).
As Progressive did not challenge the license’s validity while using the mark, it is not barred from asserting a naked licensing defense to post-license
infringement claims. This defense is not inconsistent
with the license or Progressive’s recognition that in
2012 the mark held significance. Progressive should be
allowed to show that by 2015 there was no mark left to
protect, and therefore, it cannot be liable for post-license infringement. Especially where the license
caused consumer confusion, I would permit the licensee to assert a naked licensing defense against infringement claims arising after the license expired.10
***
Trademark law imposes an affirmative duty on
the licensor to police the goods and services offered to
the public under its mark. A licensor cannot shirk this
duty by relying on a past relationship with no way to
control quality. Because I would not approve a trademark license that worked a fraud on the public, I respectfully dissent.
9
The court even stated that its entire discussion, including
the estoppel statement, “is immaterial to the outcome of the case.”
See id. Accepting that as true, the statement is dicta.
10
Some courts even hold that naked licensing estops the
trademark owner from asserting rights to the mark. Barcamerica,
289 F.3d at 596 (9th Cir. 2002); Sheila’s Shine Prod., Inc. v. Sheila
Shine, Inc., 486 F.2d 114, 124 (5th Cir. 1973).

33a
APPENDIX B
LAWN MANAGERS, INC., Plaintiff,
v.
PROGRESSIVE LAWN MANAGERS, INC.,
Defendant.
No. 4:16 CV 144 DDN
United States District Court,
E.D. Missouri, Eastern Division.
Signed 06/11/2018

Norah J. Ryan, Law Office of Norah J. Ryan, Susan
Nell Rowe, Rowe Law Office LLC, Annette P. Heller, St.
Louis, MO, for Plaintiff.
Don V. Kelly, Evans and Dixon, St. Louis, MO,
Kevin C. Roberts, Roberts and Wooten, LLC, Hillsboro,
MO, Alexander M. Hurst, Evans and Dixon, LLC, Columbia, MO, for Defendant.
MEMORANDUM OPINION
David D. Noce, UNITED STATES MAGISTRATE
JUDGE.
This case arises from a trademark dispute between plaintiff Lawn Managers, Inc., (“Lawn Managers”) and defendant Progressive Lawn Managers, Inc.,
(“Progressive”) over the latter’s use of the mark “Lawn
Managers.” Plaintiff alleges one count of trademark infringement under 15 U.S.C. § 1114, and defendant

34a
counterclaims for cancellation of trademark registration under 15 U.S.C. §§ 1115, 1119, and 1064.
The Court has subject matter jurisdiction over the
action, pursuant to 28 U.S.C. §§ 1331 and 1338 and 15
U.S.C. § 1121. The parties have consented to the exercise of plenary authority by a United States Magistrate
Judge pursuant to 28 U.S.C. § 636(c).
This action was tried to the Court sitting without
a jury from October 30 to November 1, 2017. After carefully considering the pleadings, trial testimony, exhibits, and the parties’ memoranda, the Court makes the
following findings of fact and conclusions of law pursuant to Federal Rule of Civil Procedure 52.
FINDINGS OF FACT
1. Plaintiff Lawn Managers is a lawn care business, incorporated in Missouri since 1981. Its principal,
holding 100% of its ownership, is Randall Zweifel.
2. Defendant Progressive is also a lawn care
business, incorporated in Missouri since 2012. Its principal, holding 100% of its ownership, is Linda Smith.
3. Randall Zweifel and Linda Smith were previously married; they divorced in 2012. Prior to their divorce, Zweifel and Smith each owned 50% of Lawn
Managers and its assets, including the trademark at
issue in this case. They worked together in this business for 17 years.

35a
4. Zweifel and Smith entered a marital settlement agreement, dated April 17, 2012, that was incorporated into the divorce decree issued by the Circuit
Court of Jefferson County, Missouri, on May 1, 2012.
This decree provided in pertinent part that Smith
would relinquish her share in plaintiff and establish a
new company named “Progressive Lawn Managers.” In
return, Smith would receive a license to use the name
“Lawn Managers” for two years, as well as some of
plaintiff ’s assets, including some vehicles and lawn
equipment and the ability to temporarily use plaintiff ’s facilities and credit. All of plaintiff ’s assets not
specifically named were reserved to Zweifel, who assumed sole ownership of plaintiff.
5. The May 2012 divorce decree also provided
that plaintiff ’s residential customer lists were divided
by ZIP Code areas and awarded to each party. Zweifel
and Smith each agreed not to solicit residential or commercial account business in the areas awarded to the
other for two years. Id.
6. In October 2013, Zweifel and Smith filed crossmotions for contempt for unrelated violations of the divorce decree. They reached a settlement agreement in
July 2014, which was incorporated into a second judgment of the Jefferson County Circuit Court, issued
July 25, 2014. Among its terms, the 2014 Judgment extended defendant’s license to use plaintiff ’s trademark
until December 31, 2014. It further replaced the ZIP
Code area non-solicitation agreement with a two-year
non-compete agreement for residential customers, to
expire July 25, 2016.

36a
7. The 2014 Judgment expressly provided that
plaintiff and defendant were not enjoined from entering ZIP Code areas previously awarded to the other, so
long as such entry was for purposes of signing up or
servicing commercial customers, as opposed to residential ones. Thus, even as residential customers assigned
to defendant watched plaintiff ’s vehicles driving
through their neighborhoods, they were being told by
plaintiff ’s staff that “we can’t service your ZIP Code.”
The public was not immediately privy to the 2012 Decree or the 2014 Judgment and was not made aware of
their terms in phone calls with plaintiff ’s staff.
8. Between 2012 and December 31, 2014, defendant variously made use of “Lawn Managers” and “Progressive Lawn Managers” in assorted forms of
advertising, business materials, and representations
to third parties.
9. From 2012 to 2015, there was constant and obvious consumer confusion, due to the post-divorce proceedings and the resulting two-year license agreement.
The confusion manifested itself in phone calls to one
party meant for the other party and checks that had to
be hand-sorted to make sure they went to the correct
company.
10. Immediately prior to December 31, 2014, defendant Progressive’s signage and its website used a
logo design containing the words “Progressive Lawn
Managers,” with the word “Progressive” larger than
the words “Lawn Managers, Inc.”:

37a

11. From January 2015 onward, defendant used
a visual logo that, while it still contained the words
“Progressive Lawn Managers,” used very small font
size for the word “Progressive” to the left of the words
“Lawn Managers.” This small type was, moreover, superimposed on an image of grass underneath the St.
Louis Gateway Arch and was difficult to distinguish
from the image:

12. This logo was not devised solely for artistic or
esthetic reasons. In this regard, “Progressive” is the
one word responsible for distinguishing defendant’s
mark from plaintiff ’s, and the change was implemented simultaneously with the expiration of defendant’s license to use plaintiff ’s mark. Defendant did not
make a good-faith effort to dissipate confusion, but
acted to deliberately exacerbate any consumer confusion with the intent of profiting from plaintiff ’s accrued consumer goodwill for as long as possible.
13. On February 17, 2015, plaintiff registered
the word mark “Lawn Managers” with the United
States Patent and Trademark Office (“USPTO”). Plaintiff has used the name “Lawn Managers” in commerce

38a
since its incorporation in 1981. Prior to the divorce, on
November 14, 2011, plaintiff had registered the following logo:

14. In 2015, defendant advertised a $40 coupon
that, except for the phone number listed, was identical
to that used by plaintiff. The coupon used the name
“Lawn Managers.”

15. From 2015 onward, defendant used the logo
at issue on yard signs, consisting of 11×14-inch cardboard signs posted on stakes in customers’ yards after
lawn treatments. These signs were visible to passersby
on the street. However, given the signs’ size and the
distance from which passersby would view them, only

39a
the words “Lawn Managers” and not “Progressive”
would be reasonably legible.
16. In a letter dated November 23, 2015, plaintiff ’s counsel notified defendant that it considered defendant’s logo to infringe plaintiff ’s trademark of the
words “Lawn Managers,” stating that the small size of
the font and the placement within the image would
cause consumers to reasonably overlook the word “Progressive” and thus mistake “Progressive Lawn Managers” for “Lawn Managers.”
17. In December 2015, defendant’s counsel responded that it refused to change its logo, signage, or
business practices.
18. In February 2016, defendant returned to customers checks intended for plaintiff that had been mistakenly sent to defendant. The returned checks were
accompanied by company letterhead stationery that
referred to defendant as the “Home Office” and to
plaintiff as “the High Ridge location,” rather than conveying the truth that plaintiff and defendant were separate, competing companies.
19. Plaintiff began this federal lawsuit action on
February 4, 2016, alleging trademark infringement
arising out of defendant’s continued use of the aforementioned logo. Defendant Progressive counterclaimed for trademark cancellation.
20. Between January 2016 and October 2017,
when this case was tried, plaintiff received more than
140 phone calls that indicated substantial consumer

40a
confusion. These calls included customers calling one
company while trying to reach the other, calling the
wrong company with questions about their accounts,
and attempting to cancel service with the wrong company.
21. Until late 2017, defendant used an advertisement video on its website. This video used the visual
logo at issue and represented defendant as employing
more than 20 people, a number that did not reflect defendant’s actual employee records but that was comparable to the number of people employed prior to the
division of plaintiff and defendant. The video further
represented defendant as having been in business for
a number of years that was only possible if defendant
was, in fact, plaintiff.
22. Linda Smith, defendant’s principal, made no
effort to tell customers that plaintiff and defendant
were separate companies. Instead, she just told them
that she changed her business name.
23. From 2012 until the time of trial in October
2017, when plaintiff ’s crews serviced commercial property in defendant’s ZIP Code areas, they observed the
work being done by defendant’s crews and observed
and reported that the work performed by defendant’s
crews was consistent with plaintiff ’s standards. The
work crews employed by defendant had previously
been employed by plaintiff and made use of the same
procedures and equipment they had always used. They
did not communicate their observations to defendant
or make any effort to supervise defendant’s work.

41a
24. During the period between January 1, 2015,
and the time of trial in October 2017, defendant’s revenues were $2,036,830.00, with reasonably calculated
profits of $322,753.00. However, for the purpose of determining the amount of plaintiff ’s damages, the evidence is insufficient to allow the Court to distinguish
the effect of customer confusion occurring between
2012 and 2014 from that occurring after 2014.
25. The cost of corrective advertising will be
$71,346.00.
26. Since the 2012 divorce decree, and during the
pendency of this federal action, Smith and Zweifel
have been engaged in multiple, ongoing contempt proceedings related to their divorce.
CONCLUSIONS OF LAW
This case is an admixture of federal trademark
law, difficult personal relationships, and Missouri state
divorce law. In this context, the Court may interpret
the provisions of the parties’ principals’ 2012 divorce
decree and the 2014 judgment to resolve questions of
federal trademark law. See, e.g., McGraw-Hill Companies, Inc. v. Vanguard Index Tr., 139 F. Supp. 2d 544,
551 (S.D.N.Y. 2001); Benefit Concepts New York, Inc. v.
Benefit Concepts Sys., Inc., 1995 WL 133773, at *3
(S.D.N.Y. 1995). Where these provisions are unclear,
this Court applies Missouri contract law, because the
marital settlement agreement made between the principals of plaintiff and defendant itself provided it was
to be construed under Missouri law. Cf., LeKander v.

42a
Estate of LeKander, 345 S.W.3d 282, 286 (Mo. App.
2011). Missouri state law holds that marital settlement agreements are final once they are ratified by a
state court’s order. See Mo. Rev. Stat. § 452.330.5 (“A
court’s order as it affects distribution of marital property shall be a final order not subject to modification.”).
This federal Court is not the proper forum to relitigate
Smith’s and Zweifel’s divorce proceedings or otherwise
encroach on the state court’s jurisdiction over domestic
matters. See Elk Grove Unified Sch. Dist. v. Newdow,
542 U.S. 1, 13, 124 S.Ct. 2301, 159 L.Ed.2d 98 (2004)
(“[I]n general it is appropriate for the federal courts to
leave delicate issues of domestic relations to the state
courts.”).
However, “the presence of federal law issues must
always be a major consideration weighing against surrender [of federal jurisdiction].” Moses H. Cone Mem’l
Hosp. v. Mercury Constr. Corp., 460 U.S. 1, 26, 103 S.Ct.
927, 74 L.Ed.2d 765 (1983). The purpose of federal
trademark law is twofold: (1) “to protect the public so
it may be confident that, in purchasing a product bearing a particular trade-mark which it favorably knows,
it will get the product which it asks for and wants to
get” and (2) “where the owner of a trade-mark has
spent energy, time, and money in presenting to the
public the product, he is protected in his investment
from its misappropriation[.]” S. Rep. No. 79-1333, at 3
(1946).
Nothing in this Court’s decision purports to set
aside or alter the terms of the 2012 Decree and 2014
Judgment, but it may construe them in a manner

43a
consistent with both federal trademark law and the
apparent intent of the parties. See McGraw-Hill, 139
F. Supp. 2d at 551-52; Lekander, 345 S.W.3d at 286.
1. Progressive’s Counterclaim of Trademark
Cancellation
The Court first considers defendant’s counterclaim of trademark cancellation, which, if proved,
would negate plaintiff ’s claim outright. This Court previously declined to grant summary judgment for plaintiff on this issue, and now returns to consider it
through the better lens of trial evidence. This Court is
empowered by 15 U.S.C. § 1119 to determine the right
to registration or the right to the cancelation of a registration.
Defendant argues that by allowing it to do business as Lawn Managers for two years, and then indefinitely as Progressive Lawn Managers, plaintiff
abandoned its trademark under the theory of “naked
licensing.” The Lanham Act provides that a mark is
deemed abandoned “[w]hen any course of conduct by
the owner, including acts of omission as well as commission, causes the mark to become the generic name
for the goods or services on or in connection with which
it is used or otherwise to lose its significance as a
mark.” 15 U.S.C. § 1127. If a registered trademark is
abandoned, a court may cancel it. 15 U.S.C. § 1064.
Abandonment by naked licensing or “uncontrolled
licensing” occurs when a trademark owner grants a license to use its mark but “fails to control the quality of

44a
the products made by the licensee, thus permitting a
deception of the public.” Heaton Distrib. C. v. Union
Tank Car Co., 387 F.2d 477, 485 (8th Cir. 1967). Because abandonment results in a forfeiture of rights, defendant’s burden of proof is by “clear and convincing”
evidence. Cmty. of Christ Copyright Corp. v. Devon Park
Restoration Branch of Jesus Christ’s Church, 634 F.3d
1005, 1010 (8th Cir. 2011); 3 McCarthy on Trademarks
and Unfair Competition § 17:12 (5th ed. 2018).
Plaintiff ’s two-year license of its trademark to defendant, which allowed defendant to do business as
Lawn Managers, was not a naked license. The fact that
the underlying divorce decree and judgment contain no
terms of use for the phrase “Lawn Managers” is not
dispositive. “A contractual provision giving the licensor
the right to supervise and control the nature and quality of the licensee’s goods and services is not an essential element if adequate quality control was in fact
exercised.” 3 McCarthy § 18:59.
In determining what amount of “adequate” quality
control plaintiff must have exerted to avoid defendant’s defense of abandonment, the Court considers
whether plaintiff “(1) [retained] express contractual
control over [defendant’s] quality control measures,
(2) [had] actual controls over [defendant’s] quality
control measures, and (3) was unreasonable in relying
on [defendant’s] quality control measures.” FreecycleSunnyvale v. Freecycle Network, 626 F.3d 509, 512
(9th Cir. 2010).

45a
No provision in the marital settlement agreement
gave plaintiff the right to control the nature and quality of defendant’s use of the mark. Nor did plaintiff actually control the nature and quality of defendant’s
services. Plaintiff ’s work crews observed the work
done by defendant’s work crews and found it complied
with plaintiff ’s standards. However, there is no indication in the record that plaintiff ’s work crews communicated their observations to defendant or made any
effort to supervise defendant’s work. Accordingly, the
Court concludes that plaintiff does not meet either of
the first two of the factors set out in Freecycle.
Plaintiff nonetheless prevails on the third factor
in Freecycle. When a licensor and licensee have had a
sufficiently close prior working relationship, and no actual decline in quality has been demonstrated, the licensor (plaintiff ) may reasonably rely on the licensee’s
(defendant’s) own efforts to ensure the quality of its
mark. In these cases, it “would depart from the purpose
of the law to find an abandonment simply for want of
all the inspection and control formalities.” Taco Cabana Intern., Inc. v. Two Pesos, Inc., 932 F.2d 1113, 1121
(5th Cir. 1991). Examples of such relationships include
Taco Cabana Intern., Inc. v. Two Pesos, Inc., 932 F.2d
1113 (8-year business association between two brothers); Transgo, Inc. v. Ajac Transmission Parts Corp., 768
F.2d 1001, 1017-18 (9th Cir. 1985) (10-year business association with licensee, for whom licensor manufactured 90% of components sold); and Taffy Original
Designs, Inc. v. Taffy’s, Inc., 1966 WL 7124, at *9 (N.D.

46a
Ill. 1966) (17-year business association between sisters).
The 17-year business relationship between
Zweifel and Smith was more than sufficient to give
plaintiff reasonable assurance of the quality of service
defendant would provide to customers. This is doubly
true given that the work crews employed by defendant
had previously been employed by plaintiff, they used
the same procedures and equipment they had always
used, and the quality of the service was consistent with
plaintiff ’s quality. Accordingly, there was no naked licensing, and defendant’s counterclaim of trademark
cancellation by abandonment fails.
2. Lawn Manager’s Claim of Trademark Infringement
Prevailing in a claim for trademark infringement
requires that a plaintiff prove “(1) that it owns a valid,
protectable mark, (2) that the defendant has used a
mark in commerce without the plaintiff ’s consent; and
(3) that there is a likelihood of confusion between the
plaintiff ’s mark and the defendant’s mark.” ZW USA,
Inc. v. PWD Sys., LLC, 208 F. Supp. 3d 1025, 1039 (E.D.
Mo. 2016).
(1)

Plaintiff owns a valid, protectable mark.

A trademark is established by the use of the mark
in commerce. 15 U.S.C. § 1127. It cannot be created absent such use save with a bona fide intention to make

47a
such use and a contemporaneous application for federal registration. Id. Plaintiff has a right to the wordmark “Lawn Managers.” At all times relevant to these
proceedings, it had every right to grant defendant a license to use this mark and to set an expiration date on
this license. Plaintiff does not own defendant’s trademark, “Progressive Lawn Managers,” and it has no
right to grant or rescind consent to the use of that
trademark. Still, defendant cannot use “Progressive
Lawn Managers” in any way that it chooses, if the manner of its use infringes plaintiff ’s own trademark.
(2)

After December 31, 2014, defendant used
plaintiff ’s mark in commerce without plaintiff ’s consent.

For the duration of defendant’s license, from May
2012 to December 2014, defendant was entitled to tell
customers and potential customers that its name was
Lawn Managers, Progressive Lawn Managers, or both.
And the evidence shows defendant did so. The representations made to customers and potential customers
prior to December 31, 2014, were done with plaintiff ’s
consent and therefore do not persuade that defendant
infringed.
Defendant’s license to use plaintiff ’s mark expired
on December 31, 2014. Accordingly, any use of the
mark “Lawn Managers” after December 31, 2014, or a
mark confusingly similar to it, was done without plaintiff ’s consent. In the November 2015 letter, plaintiff

48a
explicitly confirmed to defendant that plaintiff did not
consent to defendant using its mark.
(3)

There was a likelihood of confusion between
plaintiff ’s mark and defendant’s mark.

In determining whether a “likelihood of
confusion” exists, courts consider: (1) the
strength of the owner’s mark; (2) the similarity between the owner’s mark and the alleged
infringer’s mark; (3) the degree to which the
products compete with each other; (4) the alleged infringer’s intent to “pass off ” its goods
as those of the trademark owner; (5) incidents
of actual confusion; and (6) the type of product, its costs and conditions of purchase.
Co-Rect Prods., Inc. v. Marvy! Advertising Photography,
Inc., 780 F.2d 1324, 1330 (8th Cir. 1985) (citing
SquirtCo v. Seven-Up Company, 628 F.2d 1086, 1091
(8th Cir. 1980)). Applying each of these factors to this
case, the Court concludes the following.
(1) Plaintiff ’s Lawn Managers mark is of moderate strength, being descriptive with associated secondary meaning. Abercrombie & Fitch Co. v. Hunting
World, 537 F.2d 4, 9-10 (2nd Cir. 1976). Descriptive
marks are not generally eligible for trademark protection, but may develop secondary meaning with a showing that they have become associated in the consumer’s
mind with the product or service at hand. Five years’
continuous and exclusive use prior to application is
prima facie evidence of such a showing. Id.

49a
(2) The entirety of plaintiff ’s mark is contained
within defendant’s mark, distinguished only by defendant’s addition of the word “Progressive.” Defendant failed to distinguish its mark from plaintiff ’s in the
mind of the consumer, considering the size and placement of the word “Progressive.”
(3) The services represented by plaintiff ’s and
defendant’s marks compete with one another directly
within the same market.
(4) Defendant intended to pass off its services as
those of plaintiff.
(5) Substantial evidence of actual consumer confusion was presented at trial.
(6) The services provided by both parties are essentially identical in type, costs, and conditions of purchase.
Taken together, the SquirtCo factors weigh in favor of plaintiff. The second and fourth factors weigh
most heavily in this Court’s assessment. In reaching
this conclusion, the Court finds that the following
pieces of evidence most strongly support an inference
that defendant intended to pass off its services as those
of plaintiff.
Prior to December 31, 2014, defendant’s trademark was presented in a “Progressive"-centric logo, but
as the December 31 deadline approached, defendant
redesigned its logo in a way that substantially minimized the word “Progressive.” This discredits defendant’s argument that the logo was changed solely for

50a
artistic reasons. Rather, the diminution of “Progressive,” the one word responsible for distinguishing defendant’s mark from plaintiff ’s, indicates deceptive
intent, particularly when the change was implemented
very near the expiration of defendant’s license to use
plaintiff ’s mark.
Defendant used a letterhead memo form in February 2016 to return checks intended for plaintiff that
had been mistakenly sent to defendant. This form referred to defendant as the “Home Office” and to plaintiff as “the High Ridge location.” The use of “Home
Office” and “the High Ridge location” clearly suggests
that the latter is a branch or subsidiary of the former,
rather than conveying the truth that plaintiff and defendant were separate, competing companies.
Defendant’s principal Smith testified that she
made no effort to tell customers that plaintiff and defendant are separate companies. Instead, Smith testified that “I just tell them I’ve changed my name.” The
natural construction of this statement is that “I” refers
to Lawn Managers and that therefore Lawn Managers
has changed its name to Progressive Lawn Managers.
As discussed above, defendant had the right to do this
until January 2015; it had no right to continue the
practice thereafter.
Plaintiff received more than 140 phone calls between January 2016 and the time of trial that were indicative of substantial consumer confusion. They
included customers calling one company while trying
to reach the other, calling the wrong company with

51a
questions about their account, and attempting to cancel service with the wrong company.
Until late 2017, defendant advertised with a video
using the infringing logo that represented defendant
as employing more than 20 people, a number that did
not reflect defendant’s actual employee records but
that was comparable to the number of people employed
prior to the division of plaintiff and defendant. The
video further represented defendant as having been in
business for a number of years that was only possible
if defendant was, in fact, plaintiff.
In addition to these factors, the Court considers
that defendant did not enter the market for the first
time as Progressive, but its principal was a former
owner of Lawn Managers who had permission for some
time to operate as Lawn Managers or Progressive. Defendant argues that the parties’ prior relationship, and
not an infringing mark, was the source of customer
confusion. But evidence of actual confusion before January 2015 does not preclude this Court’s conclusion
that defendant infringed plaintiff ’s trademark after
January 1, 2015. See, e.g., L & L Wings, Inc. v. MarcoDestin, Inc., 676 F. Supp. 2d 179, 188 (S.D.N.Y. 2009)
(“When an ex-licensee continues to use a mark after its
license expires, likelihood of confusion is established as
a matter of law . . . because consumers have already
associated the formerly licensed infringer with the
trademark owner.”).
Because defendant was granted a license to do
business as Lawn Managers, consumer goodwill

52a
arising out of defendant’s services accrued largely to
Lawn Managers rather than to defendant. And there
is substantial evidence of actual consumer confusion
as a result of this two-year license. Defendant argues
that “it is unreasonable to expect that that confusion
would simply dissipate overnight once Defendant’s
rights to use the ‘Lawn Managers’ name terminated.”
(Doc. 117 at 94). It is not unreasonable, however, to expect that defendant would make a good-faith effort to
dissipate confusion. Defendant did not make that effort. To the contrary, defendant deliberately exacerbated any consumer confusion with the intent of
profiting from plaintiff ’s accrued consumer goodwill
for as long as possible. Defendant’s actions following
the expiration of its license infringed plaintiff ’s trademark.
3. Relief
Plaintiff seeks injunctive relief and damages under the Lanham Act. A showing of likelihood of confusion entitles the owner of the mark to injunctive relief,
while a showing of actual confusion and willful infringement entitles the owner to damages. See Masters
v. UHS of Delaware, Inc., 631 F.3d 464, 471 n.2 (8th Cir.
2011); Co-Rect Products, 780 F.2d at 1330. Both have
been shown here. In calculating damages, a victorious
plaintiff may claim “(1) defendant’s profits, (2) any
damages sustained by the plaintiff, and (3) the costs of
the action.” 15 U.S.C. § 1117(a). Plaintiff must prove
only defendant’s sales, while defendant must prove
any claimed deductions. In other words, “[t]he

53a
defendant bears the burden in calculating profits of
proving any operating costs to be deducted from sales
revenue it realized during the period of trademark infringement.” Tonka Corp. v. Tonk-A-Phone, Inc., 805
F.2d 793, 794 (8th Cir. 1986); see also 15 U.S.C.
§ 1117(a). If “the court shall find that the amount of the
recovery based on profits is either inadequate or excessive the court may in its discretion enter judgment for
such sum as the court shall find to be just, according to
the circumstances of the case.” 15 U.S.C. § 1117(a).
The Court previously stated it would consider defendant’s unclean hands defense when assessing damages. Defendant claims that plaintiff ’s advertisement
to customers in plaintiff ’s ZIP Code areas in July 2016
sullied plaintiff ’s hands in this suit. Under Missouri
law, the protection of customer accounts, lists, or relationships is assumed to be limited in duration, unless
a party demonstrates “unequivocally” that both parties
intended it to run perpetually. See, e.g., Armstrong Bus.
Servs., Inc. v. H & R Block, 96 S.W.3d 867, 875 (Mo. Ct.
App. 2002). Rather than any such indicator of perpetual intent, both the 2012 divorce decree and the 2014
Judgment expressly limited the non-solicitation and
non-compete provisions to a term of years. Accordingly,
plaintiff was entitled to renew advertising to customers following the expiration of the 2014 Judgment’s
non-compete provision in July 2016, and this advertisement did not sully plaintiff ’s hands in a suit for
trademark infringement. Defendant produced no other
evidence to support a finding that plaintiff acted inequitably toward it as to the trademark at issue.

54a
Defendant also argues that the Court must apportion the profits to reflect only those caused by the use
of the infringing mark. However, plaintiff has proven
that apportionment is inherently impossible in this
case. See Hamilton-Brown Shoe Co. v. Wolf Bros. & Co.,
240 U.S. 251, 261-62, 36 S.Ct. 269, 60 L.Ed. 629 (1916).
The same evidence shows that the damage to consumers’ ability to differentiate between plaintiff and defendant was already done by the date infringement
began. While this does not support defendant’s contention that there was no infringement, it does make it
difficult to trace causation from confused consumers to
an infringing act of defendant instead of to plaintiff ’s
two-year license.
Substantial consumer confusion arose from plaintiff ’s two-year license agreement with defendant. The
terms of the marital settlement agreement expressly
provided defendant the right to use “Lawn Managers”
or “Progressive Lawn Managers” interchangeably at
defendant’s sole discretion. Defendant could and did
hold itself out to the public as plaintiff, with plaintiff ’s
consent, until December 31, 2014.
Despite the division of residential customers by
ZIP Code areas, plaintiff and defendant maintained
the right to enter one another’s ZIP Code areas for purposes of servicing commercial customers. The public
was not immediately privy to the 2012 Decree or the
2014 Judgment and was not made aware of their
terms in phone calls with plaintiff ’s staff. Thus, even
as residential customers assigned to defendant
watched plaintiff ’s vehicles driving through their

55a
neighborhoods, they were being told by plaintiff ’s staff
that “we can’t service your ZIP Code.”
Plaintiff ’s principal and staff testified that there
was “constant” and “obvious” consumer confusion from
2012 through 2014, and plaintiff ’s counsel conceded
the existence of extensive consumer confusion prior to
2015 arising directly out of the post-divorce proceedings and resulting two-year license agreement.
Plaintiff ’s expert witness testified that the information available was not sufficient to differentiate the
effects of confusion occurring before January 2015
from those occurring after for purposes of calculating
damages.
After carefully reviewing the expert reports, defendant’s tax returns, and defendant’s financial statements, the Court has determined that defendant’s
profits from 2015-2017 were $322,753.00. Defendant
has not submitted credible evidence supporting its
claim that the profits should be reduced. See H-D Michigan Inc. v. Biker’s Dream Inc., 1998 WL 697898, at *610 (C.D. Cal. 1998) (holding when deduction data is “incomplete and contradictory,” guessing is not appropriate and the court will find the infringer failed to prove
cost deductions); New York Racing Ass’n v. Stroup
News Agency Corp., 920 F. Supp. 295, 301 (N.D.N.Y.
1996) (holding when the plaintiff proves gross sales
and the defendant fails to prove cost deductions, “then
the profits to which the plaintiff is entitled under the
Lanham Act are equal to the infringer’s gross sales”);
Aris Isotoner Inc. v. Dong Jin Trading Co., Inc., 1989

56a
WL 236526, *5 (S.D.N.Y. 1989) (“[T]he court may resolve any doubts against the defendant in calculating
profits, particularly if the uncertainty is due to the defendant’s inadequate recordkeeping or failure to produce documentary evidence.”).
But given the nature of the parties’ licensing
agreement between 2012 and 2014, a damages award
of $322,753.00 would be excessive. The degree of consumer confusion generated prior to 2015 was substantial and, ultimately, impossible to divide from that
perpetuated later by defendant’s willfully infringing
activity. Additionally, during the relevant period of
January 1, 2015, to July 25, 2016, the parties were under a non-compete agreement. The Court equitably accounts for the fact that the parties were not legally
competing for residential customers in several ZIP
Code areas for approximately half of the relevant profit
period. Thus, the residential account profits for that
time period cannot be traced to defendant’s infringement. Accordingly, considering the positions of the parties and the additional costs assessed as a result of
defendant’s infringing conduct, the Court awards
plaintiff compensatory damages of $80,688.00 (25% of
its claimed damages of $322,753.00), $71,346.00 for
corrective advertising, plus reasonable attorney fees,
the costs of the action, and injunctive relief.
An appropriate Judgment Order is filed herewith.

57a
APPENDIX C
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
LAWN MANAGERS, INC., )
)
Plaintiff,
)
No. 4:16 CV 144 DDN
v.
)
)
PROGRESSIVE LAWN
)
MANAGERS, INC.,
)
Defendant.
)
SUPPLEMENTAL JUDGMENT ORDER
(Filed Jul. 13, 2018)
This action was tried to the Court sitting without
a jury, the undersigned United States Magistrate
Judge presiding by consent of the parties under 28
U.S.C. § 636(c)(3). The Court having rendered its findings of fact and conclusions of law in its Memorandum
Opinion, filed on June 11, 2018, and having ruled certain post judgment motions by Memorandum and Order filed herewith,
IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that Plaintiff Lawn Managers, Inc., have
and recover from Defendant Progressive Lawn Managers,
Inc., compensatory damages in the sum of $80,688.00,
plus the sum of $71,346.00 for corrective advertising,
plus post judgment interest thereon at the rate

58a
provided by 28 U.S.C. § 1961, plus reasonable attorneys’ fees and the costs of the action.
IT IS FURTHER ORDERED, ADJUDGED,
AND DECREED as follows:
1. Defendant Progressive Lawn Managers, Inc.,
and its principals, officers, agents, and employees (collectively “Defendant”) is PERMANENTLY ENJOINED from using plaintiff ’s trademark “Lawn
Managers” in connection with the marketing or operation of defendant’s business. Defendant’s use of its own
trademark, “Progressive Lawn Managers,” must comply with the following terms:
A.

The word “Progressive” must be of a
larger font size than that used by the
words “Lawn Managers.”

B.

If defendant continues to use the name
“Progressive Lawn Managers," these
words must be contiguous, each word being of the same font and the word “Progressive” being of a font size at least twice
as large as that of the words “Lawn Managers;” and

C.

No word may be placed inside a graphic
or otherwise separated from the other
words.

D.

Defendant must not represent to the
public that it had been in business prior
to 2012. Defendant may represent to the
public Linda Smith’s years of experience
with the industry, but must do so with the

59a
construction “__ years’ experience” rather
than “__ years in business” or “in business
since 19__.”
E.

If Defendant ceases to use the word
“Managers” in its trademark, it is not prohibited from using “Lawn” or the word
“Progressive” or either of them.

2. Defendant must replace all signage currently
in use that does not comply with the terms listed
above.
3. Defendant must issue a written notice letter
to all of its current and former customers of the period
January 1, 2015, to the date of this Judgment Order.
This letter must prominently display the following
terms:
A.

Plaintiff and defendant are separate,
competing companies. Defendant’s CEO
and staff were formerly affiliated with
plaintiff until 2012, whereupon they separately incorporated as Progressive Lawn
Managers.

B.

Correct and distinct contact information, including payment address, for
plaintiff.

C.

Correct and distinct contact information, including payment address, for
defendant.

4. Defendant must notify any government
agency, domain name registrar, bank, business directory, telephone directory, listing company, advertising

60a
listing, and any other such entity that defendant has
used or provided contact information to since January
1, 2015, that it is no longer using the name “Lawn
Managers.” Defendant must direct each such entity to
change its records to reflect defendant’s correct name.
5. Defendant must relinquish ownership of the
URL “lawnmanagersinc.com.” Any additional domain
names or URLs under defendant’s control that use the
words “Lawn Managers” must also be relinquished, unless they are immediately preceded by the word “Progressive.” If abbreviated, such domain names or URLs
will also be relinquished unless the letters “LM” are
immediately preceded by the letter “P.”
6. Defendant must respond to telephone inquiries for “Lawn Managers” with correct and distinct contact information for plaintiff, including the fact that
plaintiff and defendant have been separate companies
since 2012. Plaintiff must likewise respond to telephone inquiries for “Progressive” or “Progressive Lawn
Managers.”
7. Within 30 days of the date of this Supplemental Judgment Order, Defendant must permanently
remove the advertising video previously located on its
“Contact Us” internet website plmi.us from any location on the internet where the video appears.
8. Counsel for defendant must report to the
Court in writing regarding the completion of the actions set forth above within 60 days of the entry of this
Supplemental Judgment Order.

61a
9. The Court shall retain jurisdiction over this
action to enforce this permanent injunction entered
against defendant Progressive.
10. Pursuant to 15 U.S.C. § 1116, the Clerk of the
Court will notify the Director of Patents and Trademarks of the entry of this final Supplemental Judgment Order, who will enter it upon the records of the
United States Patent and Trademark Office.
/s/ David D. Noce
UNITED STATES MAGISTRATE JUDGE
Signed on July 13, 2018.

62a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-2658
Lawn Managers, Inc., a Missouri Corporation
Appellee
v.
Progressive Lawn Managers, Inc.,
a Missouri Corporation
Appellant

Appeal from U.S. District Court for the
Eastern District of Missouri – St. Louis
(4:16-cv-00144-DDN)
ORDER
(Filed Jun. 29, 2020)
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
June 29, 2020
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

63a
APPENDIX E
Linda R. ZWEIFEL, n/k/a Linda R. Smith,
Respondent,
v.
Randall ZWEIFEL, Appellant.
No. ED 107451
Missouri Court of Appeals,
Eastern District,
DIVISION ONE.
Filed: January 28, 2020
Motion for Rehearing and/or Transfer to
Supreme Court Denied March 9, 2020
Appeal from the Circuit Court of Jefferson County,
Hon. Antonio M. Manansala, Judge
ATTORNEYS FOR APPELLANT, Susan N. Rowe,
2117 Nebraska Ave., St. Louis, MO 63104, Norah J.
Ryan, 3407 South Jefferson, St. Louis, MO 63118.
ATTORNEYS FOR RESPONDENT, Kevin C.
Roberts, Jonathan W. Doss, P. O. Box 888, Hillsboro,
MO 63050.
ROBERT G. DOWD, JR., Judge.
Randall Zweifel appeals from the contempt judgment entered against him for conduct his ex-wife
Linda Smith claimed violated the dissolution judgments. We reverse.

64a
Background
Zweifel and Smith jointly owned and operated
Lawn Managers, Inc. during their marriage. The marriage dissolved, and the parties reached an agreement
regarding their business interests, among other things.
The parties’ Marital Settlement Agreement was incorporated into the dissolution judgment dated May 1,
2012 (collectively the agreement and judgment will
be referred to as “2012 MSA and Judgment”). Therein,
it was agreed that Smith would assign all of her shares
in the lawn care business to Zweifel, which would
continue under the name “Lawn Managers, Inc.,” and
Smith would establish a new lawn care company. In
Section 5.02, the parties divided the accounts and accounts receivable of the business. They were each
awarded certain commercial accounts and accounts receivable; Smith was “awarded all right, title, and interest in all residential accounts and accounts receivable
in the following zip codes,” and then 19 zip codes were
listed. Zweifel was similarly “awarded all right, title,
and interest in all residential accounts and accounts
receivable” in 54 zip codes.
In Section 5.06, the parties addressed “Development of New Business.” Therein, Smith agreed that
her new lawn care business would use the name “Progressive Lawn Managers, Inc., doing business as Lawn
Managers” for a period of no more than two years and
would thereafter stop using the name “Lawn Managers” and use only the name “Progressive Lawn Managers, Inc.” In that same section, the parties included a
non-solicitation agreement:

65a
For a period of two years from that date of dissolution of marriage [Smith] and her employees will
refrain from soliciting residential accounts and
commercial accounts in the zip codes that have
been awarded to [Zweifel] in Section 5.02(2)(b),
and [Zweifel] and his employees will refrain from
soliciting residential accounts and commercial accounts in the zip codes that have been awarded to
[Smith] in Section 5.02(2)(b). [Smith] and [Zweifel]
understand that the agreement to refrain from soliciting business in the zip codes awarded to the
other party includes business for lawn care services, fertilization, weed control, insect control,
and other types of lawn service.
There appears to never have been any dispute that
under the above terms of the 2012 MSA and Judgment,
the parties were: (1) each awarded a number of existing
commercial accounts and a number of existing residential accounts in identified zip codes and (2) each had
the exclusive right to solicit new commercial or residential accounts in those zip codes, at least for two
years. There was, however, disagreement as to the
meaning of “solicit” in Section 5.06. When residential
customers in Smith’s zip codes contacted Zweifel for
service, he began servicing them, claiming to believe
that because he did not “solicit” their business he was
not violating the 2012 Judgment. It appears that some
of those 72 customers he began servicing were existing
accounts awarded to Smith in Section 5.02 and some of
them were new accounts covered by the non-solicitation provision in Section 5.06.

66a
In October of 2013, Smith filed a motion for contempt, alleging that Zweifel solicited and serviced accounts that had been awarded to her in violation of
Section 5.02 and the non-solicitation provision of Section 5.06.1 Zweifel filed a cross-motion for contempt
alleging Smith was engaged in similar behavior. Ultimately, the parties reached an agreement settling the
issues in these motions on July 25, 2014. The terms of
that agreement were entered as the judgment of the
court (collectively this agreement and judgment will
be referred to as “2014 Settlement and Judgment”).
Therein, the parties agreed that “each may sign up and
service new commercial accounts wherever they may
be, regardless of zip code.” As to residential accounts,
the parties agreed as follows:
Parties agree that each of them shall NOT sign up
or service any new residential accounts in the zip
codes awarded to the other in [the 2012 MSA and
Judgment]. This non-compete agreement shall remain in effect for two years from today’s date and
is enacted in lieu of the prior non-solicitation
clause found in paragraph 5.06 of [the 2012 Judgment].2

1

Several months earlier, Zweifel was held in contempt of the
2012 MSA and Judgment, on Smith’s motion, for failing to make
a certain payment thereunder. He successfully purged himself of
that contempt by making the payment.
2
We note the two-year non-solicitation clause in Section 5.06
of the 2012 MSA and Judgment—which this non-compete was
said to replace—had actually already expired on May 1, 2014 by
its own terms.

67a
Zweifel also agreed to transfer to Smith “all of his existing residential customers” in two of the zip codes
that had been awarded to him in 2012, and these zip
codes were expressly covered by the non-competition
provision above. Otherwise, the parties agreed, “[a]ll
other terms of [the 2012 MSA and Judgment] shall remain in full force and effect.” It was also agreed that
Smith would stop using the name “Lawn Managers” on
December 31, 2014 and thereafter use only the name
“Progressive Lawn Managers, Inc.” for her business.
In February of 2016, Zweifel’s company filed a
trademark infringement claim in federal court, alleging that Smith’s company was continuing to use his
company’s name in violation of the parties’ agreement.
While that case was pending, the two-year non-compete in the 2014 Settlement and Judgment expired on
July 25, 2016. The parties agreed this meant that they
were no longer prohibited from signing up or servicing
new residential customers in the other’s zip codes. But
it became evident that they disagreed about whether
they could also begin to compete for the existing residential accounts that had been awarded to the other
party. It appears Zweifel believed that once the nonsolicitation and non-compete expired, all customers
were fair game and he sent a “We Want You Back” letter to customer accounts that had been awarded to
Smith. It appears Smith disagreed, and believed there
was a permanent non-compete on the existing customer accounts each was awarded. She asserted an affirmative defense of unclean hands in the federal
trademark infringement case based on the “We Want

68a
You Back” letter and Zweifel’s continued service of the
72 residential customers that contacted him years earlier. Smith also filed another motion for contempt in
state court and a separate request for injunctive relief
based on that conduct.
The state court issued a temporary restraining order prohibiting Zweifel from contacting, soliciting or
providing services to “any of the customers and/or accounts awarded to [Smith]” in either 2012 or 2014. On
Zweifel’s motion to clarify, the TRO was modified to
provide that Zweifel was permitted to respond to a specific list of customers who contacted him after the “We
Want You Back” letter by notifying them that he could
not service their accounts at this time and could not
discuss the matter further. The TRO, as modified, was
converted to a preliminary injunction on November 18,
2016, after a hearing.
Smith then amended her latest motion for contempt in October of 2017. Zweifel asserted affirmative
defenses, one of which was that any claims in this motion for contempt relating to his continued servicing of
the 72 customers were precluded under principles of
res judicata because they were previously fully adjudicated in the proceedings to resolve the parties’ earlier
cross-motions for contempt, which resulted in the 2014
Settlement and Judgment. Zweifel also filed counterclaims for, among other things, damages based on improvidently granted injunctive relief. A bench trial was
held over the course of several days in February, March
and April of 2018.

69a
Shortly after the contempt trial ended in state
court but before a decision was reached, the federal
court ruled on the trademark infringement case. It entered judgment finding that Smith had infringed by
using the “Lawn Managers” name and, in assessing
damages, concluded that Zweifel did not have unclean
hands because the non-competition provision had expired by the time he sent the “We Want You Back” letter. Zweifel sought to have the state court reopen the
evidence in the contempt case, arguing that this federal judgment must be given collateral estoppel effect
and precluded the state court from finding him in contempt for conduct the federal court found was permissible. That motion to reopen was denied.
In November of 2018, the court entered the judgment that is now on appeal, granting the amended motion for contempt and denying all defenses and
counterclaims. It concluded that Section 5.02 of the
2012 MSA and Judgment—dividing the commercial
and residential accounts and accounts receivable—was
a division of business assets, which like any division of
marital property, is “not subject to modification.” The
court concluded that the parties have and “will continue to have, in perpetuity, a property interest” in the
customer accounts awarded to each of them in 2012
and 2014. The court found the 2012 MSA and Judgment and the 2014 Settlement and Judgment obligated Zweifel “to only service zip code accounts that
were awarded as property to [him] . . . and not to service zip code accounts awarded as property to [Smith].”
The non-solicitation and non-competition provisions

70a
therein, it concluded, applied only to “new business”
and not the customer accounts awarded in the division
of property. Once those provisions expired, the court
found, the parties were permitted to solicit new business in any zip code, but could not “solicit the customer
accounts awarded to the parties” in 2012 and 2014.
Thus, the court held Zweifel in contempt for servicing
existing residential accounts in Smith’s zip codes and
soliciting Smith’s existing residential accounts with
the “We Want You Back” letter—all in violation of the
2012 MSA and Judgment and the 2014 Settlement and
Judgment. The court also found that since 2014,
Zweifel solicited, signed up and serviced new residential accounts in zip codes awarded to Smith in violation
of the non-compete in the 2014 Settlement and Judgment. The court found Zweifel’s conduct to be intentional and contumacious. The court ordered him to pay
Smith damages in the amount of $415,381.72, based
on her lost profits, and attorney fees. This appeal follows.
Scope of Appeal
Zweifel raises six points of error in which he challenges various aspects of the contempt judgment on
different theories. We note at the outset that this appeal does not involve commercial accounts, as all of the
conduct the court held was contemptuous related to
residential customers. It does not involve Zweifel’s conduct with respect to new residential accounts: Zweifel
has not raised any point on appeal challenging the
court’s finding that while the non-compete in the 2014

71a
Settlement and Judgment was in effect, he solicited,
signed up and serviced new residential customers in
Smith’s zip codes. Rather, all of the issues on appeal
relate solely to Zweifel’s soliciting and servicing of residential customer accounts that existed at the time of
the dissolution and were awarded to Smith.
In his first point on appeal, Zweifel contends the
federal trademark judgment was a conclusive determination that he was permitted to send the “We Want You
Back” letter to the Smith’s customers after the expiration of the two-year non-compete in the 2014 Settlement and Judgment, which he claims is dispositive of
the issue of whether Smith had a permanent non-compete as to those customers and whether sending the
letter violated such a provision. In his fourth point on
appeal, he similarly contends that any claims regarding his servicing of the 72 customers who came to him
had been fully and conclusively resolved in his favor by
the 2014 Settlement and Judgment and could not be
relitigated in this later motion for contempt. In essence, Zweifel asserts that these two previous adjudications are dispositive of the issues and claims here
and require a finding by this Court that his conduct in
sending the letter and servicing those 72 customer accounts did not violate the 2012 MSA and Judgment or
the 2014 Settlement and Judgment. We disagree that
such a definitive finding of “no contempt” is appropriate here. Rather, we agree with Zweifel’s alternative
basis for reversal, set out in his second point on appeal:
that the provision of the 2012 MSA and Judgment and
the 2014 Settlement and Judgment are too vague and

72a
indefinite as to his obligations regarding the existing
customer accounts awarded to Smith for him to be held
in contempt thereof. Granting the second point on appeal, renders his third and fifth points on appeal moot.
In his sixth and final point on appeal, Zweifel argues
that if we reverse, we must also deem the preliminary
injunction to have been improvidently granted, which
we do not believe is warranted here.
Discussion
We take the points on appeal somewhat out of order, beginning with the preclusive effect of certain
prior judgments on the issues and claims in this matter. The underlying question as to whether an issue is
barred by a prior judgment is a question of law. See
Bresnahan v. May Department Stores Company 726
S.W.2d 327, 329 (Mo. banc 1987). Otherwise, our review
of the contempt judgment is the same as in any courttried matter: we will affirm a civil contempt judgment
unless there is no substantial evidence to support the
decision, the decision is against the weight of the evidence or the decision erroneously declares or applies
the law. Wuebbeling v. Wuebbeling, 574 S.W.3d 317, 327
(Mo. App. E.D. 2019). “Further, this Court will not reverse the trial court’s ruling on a civil contempt motion
absent a clear abuse of discretion.” Id.
Preclusion
Zweifel contends the judgment entered in his company’s federal trademark infringement case against

73a
Smith’s company conclusively determined the meaning of the 2012 MSA and Judgment and the 2014 Settlement and Judgment and precluded a different
finding about the obligations thereunder by the trial
court in this contempt case.3 The claim of infringement
in the federal case was based on Smith’s continued
use of Zweifel’s company name.4 Smith asserted the affirmative defense of unclean hands, claiming that
Zweifel’s solicitation of customers in her zip codes in
July of 2016—namely, sending the “We Want You Back”
letter—was a violation of the 2014 non-compete and
should bar his trademark infringement claim. In its
judgment, the federal court addressed the unclean
hands defense only in the context of assessing damages:
The Court previously stated it would consider
[Smith’s] unclean hands defense when assessing
3

Smith notes that Zweifel moved this Court on appeal to
suspend the briefing schedule while the federal court’s judgment
is pending on appeal, raising the same collateral estoppel arguments raised in this point. We denied that motion without explanation and do not consider that denial to be determinative of the
merits of whether the federal judgment has a preclusive effect on
this issue.
4
The record before us regarding the federal trademark case
consists solely of the federal court’s judgment and memorandum
opinion and the proposed findings and conclusions submitted to
the federal court by both parties in that case. The appendix to
Smith’s brief contains additional pleadings purportedly filed in
that case, but those documents are not part of the record in this
appeal and are not made part of the record simply by including
them in the appendix. We do not consider documents in an appendix that are not in the record on appeal. Washington v. Blackburn,
286 S.W.3d 818, 822 (Mo. App. E.D. 2009).

74a
damages. [Smith] claims that [Zweifel’s] advertisement to customers in [her] zip code areas in
July 2016 sullied [his] hands in this suit. Under
Missouri law, the protection of customer accounts,
lists, or relationships is assumed to be limited in
duration, unless a party demonstrates “unequivocally” that both parties intended it to run perpetually. See, e.g., Armstrong Business Services, Inc. v.
H & R Block, 96 S.W.3d 867, 875 (Mo. App. W.D.
2002). Rather than any such indicator of perpetual
intent, both the 2012 [MSA and Judgment] and
the 2014 [Settlement and] Judgment expressly
limited the non-solicitation and non-compete provisions to a term of years. Accordingly, [Zweifel]
was entitled to renew advertising to customers following the expiration of the 2014 [Settlement and]
Judgment’s non-compete provision in July 2016,
and this advertisement did not sully [his] hands in
a suit for trademark infringement. [Smith] produced no other evidence to support a finding that
[Zweifel] acted inequitably toward it as to the
trademark at issue.
Collateral estoppel—or issue preclusion, as it is
known in modern terms—precludes the same parties
(or those in privity with them) from re-litigating an issue that was previously adjudicated. U-Haul Company
of Missouri v. Carter, 567 S.W.3d 680, 684-85 (Mo. App.
W.D. 2019). For collateral estoppel to apply, the prior
action must have necessarily and unambiguously resolved the same question presented in the second proceeding. Id. at 685; see also Trow v. Worley 40 S.W.3d
417, 422 (Mo App. S.D. 2001). The overriding factor is
a consideration of whether it would be fair to apply

75a
collateral estoppel in this particular case. James v.
Paul, 49 S.W.3d 678, 688 (Mo. banc 2001). The analysis
must focus primarily on principles of equity derived
from the facts of each case, and collateral estoppel will
not be applied where to do so would be inequitable. Id.;
see also Wilkes v. St. Paul Fire and Marine Insurance
Company, 92 S.W.3d 116, 123 (Mo. App. E.D. 2002).
It would not be fair to apply collateral estoppel in
this case. The contempt and trademark infringement
cases were proceeding simultaneously, and both the
federal and the state court took pains to ensure that
nothing they did in one case improperly impacted the
other. The federal court found it was permitted to interpret the provisions of the 2012 MSA and Judgment
and the 2014 Settlement and Judgment, stating it was
doing so under principles of Missouri contract law and
consistently with federal trademark law and the parties’ intentions. But, it also expressly stated that it
was “not the proper forum to re-litigate Smith’s and
Zweifel’s divorce proceedings or otherwise encroach
on the state court’s jurisdiction over domestic matters”
and that “nothing in this Court’s decision purports to
set aside or alter” the terms of the 2012 MSA and Judgment and the 2014 Settlement and Judgment. Likewise, the state court in the contempt case stated—in
its denial of the motion to reopen evidence and in its
final judgment in this case—that “[n]othing in this
Court’s decision purports to set aside or alter” the federal court’s judgment.
Moreover, the federal court did not assess Zweifel’s
conduct in the context of whether it was contemptuous.

76a
As discussed in greater detail later in this opinion, one
cannot be held in contempt of a court order unless that
order is “so definite and specific as to leave no reasonable basis for doubt of its meaning.” Wuebbeling, 574
S.W.3d at 327-28. The federal court did not analyze the
2012 MSA and Judgment and the 2014 Settlement and
Judgment under this strict standard and therefore
the conclusions that court drew about the provisions
therein—and whether Zweifel’s conduct was permitted
thereunder—do not unambiguously answer the identical question presented to the contempt court. Fairness
dictates that those conclusions should not supplant the
state court’s examination of what precisely was prohibited in that court’s judgments and whether Zweifel was
in contempt. Under these circumstances, it would be
inequitable for us to give the federal judgment preclusive effect and hold that it is dispositive of whether the
2012 MSA and Judgment and the 2014 Settlement and
Judgment permitted sending the “We Want You Back”
letter.
Point I is denied.
In a similar argument, Zweifel contends Smith
should have been barred under the doctrine of res judicata (also known as claim preclusion) from re-litigating
claims relating to the 72 customers who he began
servicing after 2012 when they approached him. He
contends all such claims were resolved by the 2014 Settlement and Judgment reflecting resolution of their
2013 cross-motions for contempt. Of course, those earlier proceedings addressed only the conduct that occurred prior to the 2014 Settlement and Judgment; the

77a
current motion for contempt alleged that he continued
servicing those 72 customers after the 2014 Settlement
and Judgment. Zweifel’s argument as to why Smith is
precluded from litigating these claims is difficult to follow, but appears to be premised on the notion that he
somehow was awarded those 72 customer accounts
during the proceedings on those 2013 cross motions
for contempt. He claims to have “already had” those 72
customer accounts at the time the parties settled those
motions and by virtue of that settlement, Smith agreed
she had been fully compensated for any claim relating
to those customers. Thus, the argument continues, he
was not violating the 2014 Settlement and Judgment
when he continued to service the “accounts that he
had” at that time and “retained after that date.”
Zweifel has pointed to nothing in the record that indicates these 72 customers became Zweifel’s property at
any point—prior to, during or after the 2014 Settlement and Judgment—and the argument based on that
unsupported factual assertion is therefore without
merit.
Point IV is denied.
Contempt
Alternative to his argument that the above judgments compel the conclusion that Zweifel’s conduct
was permissible under the 2012 MSA and Judgment
and the 2014 Settlement and Judgment, he contends
his conduct was not clearly and unambiguously prohibited thereunder and thus he could not be held in

78a
contempt of those judgments. We agree that there was
no explicit directive in the 2012 MSA and Judgment
and the 2014 Settlement and Judgment regarding the
parties’ obligations with respect to existing residential
customers, which required the trial court to find a prohibition of Zweifel’s conduct by implication. The court
did not have authority to hold him contempt under
these circumstances.
“Contempt is available only where a party has
been ordered to perform or not to perform a specific act
and yet refuses to do so.” State ex rel. Euclid Plaza
Associates, L.L.C. v. Mason, 81 S.W.3d 573, 577 (Mo.
App. E.D. 2002). Our Court recently reiterated the limitations on a court’s authority to hold a party in contempt of a court order, concluding that “clarity in the
order itself is essential so the process may comport
with fundamental principles of fairness”:
To support a charge of contempt for disobedience
of a judgment, decree or order, the court’s pronouncement may not be expanded by implication
in the contempt proceeding and must be so definite and specific as to leave no reasonable basis for
doubt of its meaning. Before a court may impose
sanctions on a party for disobeying a court order,
the order itself must precisely advise the individual of what conduct is forbidden.
Wuebbeling, 574 S.W.3d at 328 (internal quotation
marks and citations omitted). Thus, the finding of contempt must be predicated on a clear, unambiguous and
express directive of the court explicitly mandating or
prohibiting the conduct at issue. See id. at 328-29. If

79a
the provision on which the contempt court relies is too
vague, any mandate for or prohibition against the conduct at issue could only be found by implication. See id.
at 328-30. Expanding an earlier pronouncement by implication exceeds the court’s authority in a contempt
proceeding, and a contempt judgment that relies on
such an implication must be reversed. See id.; see also
Missouri Hospital Association v. Air Conservation
Commission, 900 S.W.2d 263, 267 (Mo. App. W.D. 1995).
Here, Zweifel does not challenge the court’s findings regarding the conduct he engaged in—namely,
that he solicited and serviced existing residential accounts awarded to Smith in 2012 and 2014—only the
conclusion that this conduct violated a clear and unambiguous provision of either of those judgments. According to the trial court, the parties were forever
prohibited from soliciting or servicing those accounts.
The court’s conclusion that such a prohibition existed
appears to have been derived from a series of inferences drawn from the actual language of the judgment.
The court began by finding the existing residential
customer accounts were business assets and were
properly divided as marital property in Section 5.02 of
the 2012 MSA and Judgment. Therefore, like any
other division of property, the court found it was not
subject to modification. It appears the court then concluded that the non-modifiable nature of a division of
marital property equated to the parties having “in perpetuity, a property interest” in the accounts they were
awarded. The court also construed the two-year nonsolicitation provision in the 2012 MSA and Judgment

80a
as applicable only to “new business,” and noted that
the two-year non-compete in the 2014 Settlement and
Judgment was expressly applicable only to new accounts. The court then seems to have implied—from
both the perpetual property interest and its conclusion
that the two-year non-solicitation and non-competition
provisions only applied to new business—that there
was a permanent ban on the parties’ ability to ever
compete for each other’s existing customer accounts.
None of the provisions relied on by the court to
reach this conclusion contain a clear, unambiguous and
express directive that explicitly and permanently prohibits solicitation and servicing of the existing residential accounts awarded to the other party. In Section
5.02 in the 2012 MSA and Judgment, the parties
agreed to give each other “all right, title and interest”
in certain customer accounts. Even assuming “customer accounts” have value and are capable of division
like other business assets, that fact does not necessarily mean that they must be treated like other business assets for all intents and purposes. Contrary to
Smith’s claim that the division of accounts is analogous to the division of the lawn care company’s vehicles, it is at least arguable that there are fundamental
differences between an award of an inanimate object
like a truck and an award of customer account, which
necessarily involved a relationship with another person. An award of a business asset like a truck may be
permanent in the sense that the other party would be
forever barred from taking it back, but it is at least
reasonable to doubt that the same is true with an

81a
award of a business relationship. A truck, of course,
has no interest in or ability to decide who owns it, but
the customers whose accounts were awarded to these
parties do have an interest in who services their
lawns—an interest recognized by the court when it
found that the 2012 MSA and Judgment did not prohibit the customers awarded to Smith and Zweifel from
seeking out lawn care services from companies other
than the parties’ companies. In short, there is a reasonable basis to doubt what was meant by the award of
these accounts in Section 5.02 and whether it included
a perpetual property interest to the parties in the existing customer accounts and an attending permanent
ban on efforts to regain those customer’s business.
Smith cites a provision in the 2012 MSA and Judgment in which the parties agreed that if either of them
“wishes to sell” any of the accounts referenced in Section 5.02, they “will give the other party the first opportunity to purchase the accounts that are up for
sale.” She then asks why such a provision would be included if the parties did not intend to have a perpetual
property interest in the accounts awarded to them in
Section 5.02. She also cites to an administrative provision of the 2012 MSA and Judgment containing the following language: “This Agreement shall be binding on
the heirs, representatives, and assigns of the parties
except as to the specific paragraphs that contain provisions for termination of obligations on the death of
either party.” And, again, she asks why such a provision would be included if the parties did not intend to
have a property right over the accounts awarded to

82a
them in perpetuity in Section 5.02. Beyond positing the
questions, Smith has not demonstrated that these provisions contain a clear and unambiguous permanent
prohibition on competition with the existing residential customer accounts awarded to each party in Section 5.02
Likewise, there is considerable reason to doubt
that by expressly imposing a two-year ban on solicitation and competition for new accounts in the 2012 MSA
and Judgment and the 2014 Settlement and Judgment, there was an intent to impose a permanent ban
on such conduct with respect to the existing accounts
awarded to each other. One simply does not necessarily
follow from the other. If the non-solicitation and noncompete only apply to new customers, then it is at least
arguable that rather than implying a permanent ban
on competing for existing customer, there was no such
ban on competition for those customers at any point. If
there was never any such restriction, then one could
argue that the day after the customers were divided
in Section 5.02 of the 2012 MSA and Judgment, the
parties were entitled to immediately compete for their
business. As much as there is reason to doubt the existence of a permanent ban on competition for these
accounts, there would be equal reason to doubt that
no ban existed either. Neither of these extremes—both
of which are possible under the trial court’s interpretation—is supported by the actual language in the
2012 MSA and Judgment or the 2014 Settlement and
Judgment. Because the judgments do not clearly and
unambiguously set forth any particular directive with

83a
respect to one party’s conduct with the existing customer accounts awarded to the other, the court’s permanent prohibition on competition with those customers
was imposed by implication. It was impermissible to
hold Zweifel in contempt of that implied provision. See
Wuebbeling, 574 S.W.3d at 328.
Importantly, we note that we are not tasked in this
appeal with clarifying any of the doubts discussed
herein. Nor should anything in the above discussion be
taken as a dispositive conclusion about the actual
meaning of the 2012 MSA and Judgment or the 2014
Settlement and Judgment. Rather, we are faced with a
much narrower question in determining the propriety
of this contempt judgment: whether the provisions of
the 2012 MSA and Judgment or the 2014 Settlement
and Judgment were specific and definite enough such
that Zweifel could be held in contempt thereof. Our
conclusion on that question is that they were not and
therefore it was error to hold him in contempt for soliciting and servicing the existing residential accounts
awarded to Smith. In other words, we do not conclude
that Zweifel’s conduct was permissible under the 2012
MSA and Judgment or the 2014 Settlement and Judgment—only that the judgments are too vague for the
trial court to have determined that the conduct was
contemptuous.
Point II is granted. The judgment must be reversed to the extent it holds Zweifel in contempt for
soliciting and servicing existing customer accounts
awarded to Smith in the 2012 MSA and Judgment and
the 2014 Settlement and Judgment. Reversal of that

84a
finding of contempt renders the following points on appeal moot: Point III (challenging the award of damages
based on that contempt finding) and Point V (challenging the evidence of a factual matter underlying that
contempt finding).
Improvidently Granted Injunctive Relief
Zweifel filed in the trial court a counterclaim to
the motion for contempt, claiming the preliminary injunction was improvidently granted and seeking damages. He argues that “if this Court rules that Smith
never had a permanent, perpetual non-compete,” then
that means the preliminary injunction was improvidently granted and the matter must be remanded to
the trial court to dissolve that injunction and determine his damages. A definitive holding that Smith
did not have a permanent non-compete and therefore
Zweifel’s conduct was permissible under the judgments might have, as Zweifel suggests, automatically
resulted in a conclusion that the injunction prohibiting
that conduct was improvidently granted and is therefore dissolved. See generally Citizens for Ground Water
Protection v. Porter, 275 S.W.3d 329, 352 (Mo. App. S.D.
2008) (when party procuring temporary injunctive relief ultimately receives an adverse judgment on the
merits of the case, the issuance of the injunction is
deemed improper and is dissolved). But we have not
made any definitive conclusions about the meaning of
the 2012 MSA and Judgment or the 2014 Settlement
and Judgment. Again, our conclusion is that those
judgments were not clear as to the parties’ obligations

85a
and restrictions regarding the existing residential customers awarded to each of them. While this conclusion
means that Zweifel cannot be held in contempt of the
2012 MSA and Judgment or the 2014 Settlement and
Judgment, that is not the same as a dispositive holding
that his conduct was permissible under those judgments. Zweifel has not cited any authority that would
support deeming the preliminary injunction improvident and dissolving it under these circumstances.
Point VI is denied.
Conclusion
The judgment is reversed to the extent it holds
Zweifel in contempt for soliciting and servicing existing customer accounts awarded to Smith in the 2012
MSA and Judgment and the 2014 Settlement and
Judgment.
Robert M. Clayton III, P.J. and Roy L. Richter, J.,
concur.

86a
APPENDIX F
IN THE CIRCUIT COURT OF THE
23RD JUDICIAL CIRCUIT
ASSOCIATE CIRCUIT DIVISION
COUNTY OF JEFFERSON
STATE OF MISSOURI
LINDA R. ZWEIFEL, n/k/a
LINDA R. SMITH,
Petitioner,
v.
RANDALL ZWEIFEL,
Respondent.

)
)
)
)
)
)
)
)
)
)
)

Cause No.
09JE-DR00715-01
Division No. 12

JUDGMENT
(Filed Nov. 20, 2018)
Nothing in this Court’s decision in the abovecaptioned cause purports to set aside or alter the Judgment Order by the Honorable David D. Noce, United
States Magistrate Judge, United States District Court,
Eastern District of Missouri, Eastern Division, No.
4:16 CV 144 DDN, signed on June 11, 2018. After consideration of the pleadings, prior orders, judgments, evidence adduced during the trial on February 20,
February 21, March 23, March 26, and April 6, 2018,
the exhibits that were admitted as evidence by this
Court, transcripts and deposition filed as part of the

87a
record, arguments of counsel, and being fully advised
in the premises, this Court finds as follows:
Procedural History
The Court sets forth the Procedural History of this
case in the following timeline:
DATE

DESCRIPTION

07/15/2009 Petitioner files a Petition For Dissolution
Of Marriage.
10/22/2009 Petitioner files a Statement of Property
that lists under subsection P. Partnership
Interests – Lawn Managers 500 shares
each.
01/13/2011 Respondent files a Statement of Property
that lists under “List any other asset not
already listed herein” – Lawn Managers
Accts.Rec.
05/01/2012 Judgment and Decree of Dissolution of
Marriage is approved and signed by Hon.
Judge Lisa Page.
05/23/2012 Judgment and Decree of Dissolution of
Marriage is set aside and the case is continued to June 11, 2012 for announcement.
06/22/2012 Respondent files Motion To Compel Settlement And Judgment.
07/25/2012 Hon. Judge Lisa Page grants Respondent’s Motion To Compel Settlement And
Judgment.

88a
08/07/2012 Judgment And Decree Of Dissolution Of
Marriage is approved and signed by the
Hon. Judge Lisa Page.
02/04/2013 Petitioner files her First Motion For
Contempt.
02/19/2013 Respondent files a Response and Affirmative Defense.
07/02/2013 Hon. Judge Lisa Page finds Respondent in
contempt of Court pursuant to the Judgment And Decree of Dissolution of Marriage. Included in Judge Page’s July 2,
2013 Judgment for contempt are the following findings: Each of the affirmative
defenses raised by the Respondent fail
due to the conduct of the Respondent in
locking the Petitioner out of the business
which she was entitled to operate until
December 31, 2012; Petitioner does come
to the Court with clean hands; The Court
finds the Respondent’s expert Kathy Lawson, to not be credible; The Court finds
that the Petitioner has the right to receive
an additional sum of $77,657.46, but because this was not part of the contempt
citation for this hearing, this sum is not
awarded to Petitioner at this time; Respondent has failed and refused to pay to
Petitioner $67,000.00 per the property
settlement and that Respondent’s action
are a direct, knowing, willful and contumacious disregard and contempt for the
Court’s Order and Judgment; The Court
will grant Respondent a credit for monies
withdrawn by Petitioner and therefore

89a
orders Respondent to pay Petitioner the
remaining sum of $75,000.00 due with
statutory interest from May 1, 2012; The
Court finds that the Respondent has the
ability to pay the above sums to purge
this contempt; and The Court further
awards Petitioner’s attorney Kevin
Roberts, attorney fees in the sum of
$16,500.00.
07/31/2013 Respondent files a Motion To Amend
Judgment, Or In The Alternative, Motion
For A New Trial.
08/28/2013 Hon. Judge Lisa Page denies Respondent’s
Motion To Amend Judgment, Or In The
Alternative, Motion For A New Trial.
09/06/2013 Respondent files a Notice Of Appeal of the
Judgment entered on July 2, 2013.
09/14/2013 Petitioner files a Satisfaction Of the Judgment of $75,000.00, plus interest, entered
by the Court on July 2, 2013.
05/20/2014 Missouri Court of Appeals – Eastern District dismisses Respondent’s appeal of the
judgment of civil contempt regarding the
enforcement of divorce decree provisions
because Respondent purged himself of the
contempt by complying with the contempt
order.1
06/18/2014 Respondent files a Response To Petitioner’s Second Motion For Contempt and

1

No. ED100416, Opinion of the Missouri Court of Appeals–
Eastern District.

90a
Respondent files a Counter Motion For
Contempt.
07/25/2014 The parties settle Petitioner’s Second Motion For Contempt and Respondent’s
Counter Motion For Contempt.
08/26/2016 Petitioner files Third Motion For Contempt And Motion For Temporary Restraining Order And Preliminary And
Permanent Injunction.
09/01/2016 Hon. Judge Travis Partney issues a Temporary Restraining Order (TRO).
09/12/2016 Respondent files Answer and Affirmative
Defenses To Petitioner’s Third Motion For
Contempt And Motion For Temporary Restraining Order And Preliminary And Permanent Injunction.
10/11/2016 Hon. Judge Travis Partney enters an order that modifies the TRO.
11/18/2016 Hon. Judge Travis Partney issues a
Preliminary Injunction incorporating all
terms of said Temporary Restraining Order from September 1, 2016, and in addition, the Court incorporates all terms
from the October 11, 2016 Modification of
the Temporary Restraining Order.
09/08/2017 Respondent files Motion For Summary
Judgment.
10/16/2017 Petitioner files First Amended Third
Motion For Contempt.
10/26/2017 Respondent files Answer and Affirmative
Defenses To Petitioner’s First Amended
Third Motion For Contempt And Motion

91a
For Temporary Restraining Order And
Preliminary And Permanent Injunction
And Amended Counterclaim.
10/26/2017 Respondent files Counterclaims as follows: Count I (Suit for Damages for Improvidently Granted Injunctive Relief );
Count II (Breach of Separation Agreement); Count III (Respondent’s Second
Motion for Contempt); and Count IV
(Respondent’s Motion to Enforce Marital
Separation Agreement).
11/17/2017 Counsel make arguments on Respondent’s
Motion For Summary Judgment, Respondent’s Motion To Modify Order For
Preliminary Injunction regarding the
bond previously posted, Respondent’s Motion For Clarification of the Rights of the
Parties Pendente Lite, and various discovery motions. This Court takes said Motion
For Summary Judgment under advisement. After evidence and arguments by
counsel on Respondent’s Motion To Modify
Order For Preliminary Injunction regarding the bond previously posted, this Court
issues an Order that amends the bond.
12/04/2017 This Court denies Respondent’s Motion
For Summary Judgment.
02/20/2018 Trial is held regarding the pending litigation.
02/21/2018 Trial is held regarding the pending litigation.
03/23/2018 Trial is held regarding the pending litigation.

92a
03/26/2018 Trial is held regarding the pending litigation.
04/06/2018 Trial is held regarding the pending litigation. By agreement of counsel, the parties
are granted 45 days from the date of the
completion of the trial transcript, to file
proposed findings of fact, proposed conclusions of law, and proposed judgment.
06/20/2018 Petitioner files Fourth Motion For Contempt And Request For Sanctions And
Other Relief.
06/22/2018 Respondent files Motion To Reopen Evidence, To Vacate Preliminary Injunction,
And For Judgment In Respondent’s Favor.
06/25/2018 Respondent files Motion To Dismiss Petitioner’s Fourth Motion For Contempt, Etc.
07/16/2018 The trial transcript is completed by the
court reporter and this Court enters an
order that grants, up to and including August 30, 2018, for counsel to file proposed
findings of fact, proposed conclusions of
law, and proposed judgment.
07/18/2018 Counsel for the parties make arguments
at a hearing on Respondent’s Motion To
Reopen Evidence, To Vacate Preliminary
Injunction, And For Judgment In Respondent’s Favor. This Court takes said
motion under advisement.
07/19/2018 This Court denies Respondent’s Motion To
Reopen Evidence, To Vacate Preliminary
Injunction, And For Judgment In Respondent’s Favor.

93a
07/19/2018 This Court enters an Amended Order that
grants counsel, up to and including September 4, 2018, to file proposed findings
of fact, proposed conclusions of law, and
proposed judgment.
08/29/2018 Joint Request For Extension Of Time is
granted by this Court, up to and including
September 28, 2018, for counsel to file
proposed findings of fact, proposed conclusions of law, and proposed judgment.
10/02/2018 Corrected Joint Request For Extension Of
Time is granted by this Court, up to and
including October 9, 2018, for counsel to
file proposed findings of fact, proposed
conclusions of law, and proposed judgment.
10/09/2018 Counsel for each party timely efiled their
proposed findings of fact, proposed conclusions of law, and proposed judgment.
Petitioner’s First Amended Third Motion For Contempt, Respondent’s alleged Affirmative Defenses, Respondent’s Counterclaims, and Petitioner’s Motion To
Amend And/Or Correct the Record Nunc Pro Tunc are
pleadings that this Court considers from the evidence
adduced on the above-referenced trial dates, as part of
this Judgment in the above-captioned cause. Any other
pending motions will be considered by this Court at a
later hearing and/or trial date.

94a
Findings of Fact
The Court hereby enters the following findings of
fact from the evidence adduced during the trial that
occurred on February 20, February 21, March 23,
March 26, and April 6, 2018:
1. This case involves a lawn care business that was
organized by the Respondent, RANDALL ZWEIFEL,
as Lawn Managers, Inc. (“Lawn Managers”) in 1979
and incorporated in 1981, prior to the prior to the marriage of the parties.2
2. Lawn managers is a lawn care company that specializes in fertilizing and weed control.3 This business
does not do mowing, snow removal, nor landscaping.4
3. The parties were married on October 30, 1993, and
from the date of their marriage to the date of the final
Judgment of Dissolution of Marriage on August 7,
2012, both parties were involved with this lawn care
business. The Court finds that each party knows this
lawn care business that was developed over several
years, and the Court finds that each party knows the
meaning of “Commercial Customer Accounts,” “Residential Customer Accounts,” “Miscellaneous Commercial Accounts,” and “Accounts Receivable,” from the

2

Trial Transcript, p.784, line 19 to p.785, line 2; Exhibit 2,
attached to Respondent’s Motion For Summary Judgment-Affidavit of Randall Zweifel, ¶s 1-3.
3
Transcript, p.785, lines 3 to 13.
4
Id.

95a
date of the signing by the parties of the Marital Settlement Agreement in April 2012 to the present.
4. On July 15, 2009, Petitioner filed a Petition For
Dissolution Of Marriage.
5. On October 22, 2009, Petitioner filed a Statement
of Property that lists under subsection P. Partnership
Interests – Lawn Managers 500 shares each.
6. On April 10, 2012, the Petitioner, LINDA R.
ZWEIFEL, n/k/a LINDA R. SMITH, signed under oath
a “Martial Settlement Agreement” with a page number
at the bottom of “26.”
7. On April 17, 2012, the Respondent, RANDALL
ZWEIFEL, signed under oath a “Martial Settlement
Agreement” with a page number at the bottom of “26.”
8. On May 1, 2012, as part of the Judgment and Decree of Dissolution of Marriage between the parties, a
“Marital Settlement Agreement” was agreed upon by
the parties and it includes “Section 5. Business Interest.” In Section 5 it has subparts as follows:
5.01 Description of Business and Division of
Corporate Shares
5.02 Division of Accounts and Accounts Receivables
5.03 Division of Equipment and Vehicles
5.04 Completed Litigation

96a
5.05 Potential Tax Liability
5.06 Development of New Business.5
9. Section 5.02 Division of Accounts and Accounts Receivables includes the following language: “(1) Commercial Accounts Linda is awarded all right title, and
interest in the Lawn Champs and miscellaneous commercial accounts and accounts receivables of the corporation. (described in Exhibit D). Randy is awarded
all right, title and interest in all other commercial accounts and accounts receivables of the business. (2)
Residential Accounts (a) Accounts Awarded to Linda
Linda is awarded all right, title, and interest in all residential accounts and accounts receivables of the corporation in the following zip codes: . . . (b) Accounts
Awarded to Randy Randy is awarded all right, title,
and interest in all residential accounts and accounts
receivables of the corporation in the following zip
codes: . . . ”6
10. §5.02 further provided that Linda is awarded all
right, title, and interest in all residential accounts and
accounts receivables of the corporation in the following
nineteen (19) zip codes: 63341, 63368, 63366, 63376,
63304, 63303, 63301, 63367, 63385, 63362, 63379,
63349, 63021, 63122, 63131, 63141, 63124, 63010, and
63052.7

5
6
7

Petitioner’s Exhibit 1.
Id.
Id.

97a
11. Section 5.06 Development of New Business includes the following language: “Linda will establish a
new lawn care company using the name Progressive
Lawn Managers, Inc. doing business as Lawn Managers . . . ” Section 5.06 also includes non-solicitation language for a period of two years, refers to “new
business,” and has language that allows either party to
sell any of their commercial accounts or any of their
residential accounts as referenced in Section 5.02, that
each of them will give the other party the first opportunity to purchase the accounts that are up for sale.8
12. In order to divide the Lawn Managers customer
data base, the parties used the services of Real Green,
the software provider that both companies use to manage their customer accounts.9
13. The Court finds that the Judgment Of Decree of
Dissolution of Marriage and Marital Settlement
Agreement does not prevent current customers of Petitioner and Respondent from seeking similar lawn
care services from a lawn care business, other than the
parties in this action. The Court finds that there are
ten (10) major competitors in the St. Louis area, but
there is hundreds that provide this same lawn care service offered by the companies of Petitioner and Respondent.10

8

Id.
Exhibit 2, attached to Respondent’s Motion For Summary
Judgment-Affidavit of Randall Zweifel, ¶s 5-6.
10
Trial Transcript, p.791, line 18 to p792, line 4.
9

98a
14. The Court finds that the Marital Settlement
Agreement is clear and unambiguous and that the parties agreed to all the terms of said settlement agreement, including but not limited to the terms related to
the lawn care business.
15. The Court finds that due to a clerical error, the
wrong Martial Settlement Agreement was attached to
the Divorce Decree, signed by the Honorable Lisa Page
on May 1, 2012, which each of the parties received.
Later, Judge Page entered a new Divorce Decree on August 7, 2012 and she clarified the record that all the
miscellaneous commercial accounts were to go to Petitioner.11
16. The Court finds Petitioner credible when she testified at trial that the parties knew and understood the
meaning of “miscellaneous commercial accounts” at
the time that these accounts were split.12
17. The portions of the July 25, 2014 settlement that
are relevant to the pending litigation are as follows: “2)
Parties agree that each may sign up and service new
commercial accounts wherever they may be regardless
of zip code, this includes new misc. commercial accounts; 3) Parties agree that each of them shall not
sign up or service any new residential accounts in the
zip codes awarded to the other in their divorce settlement & decree agreement dated 5/1/12. This non-compete agreement shall remain in effect for two years
11

Petitioner’s Exhibit A of Petitioner’s Motion To Amend
And/Or Correct the Record Nunc Pro Tunc.
12
Trial Transcript, p.65, line 2 to p.67, line 25.

99a
from today’s date and is enacted in lieu of the prior
non-solicitation clause found in paragraph 5.06 of the
Settlement Agreement referred to above; 4) All other
terms of the parties divorce decree and settlement shall
remain in full force & effect; 5) Respondent shall transfer to Petitioner all of his existing residential customers in the following zip codes: a) 63038 (Ellisville Area)
b) 63040 (Grover Area) This shall include any accounts
receivable from those accounts. Said transfer to be conducted by Peter Brown from Real Green on Monday
July 28th or as soon thereafter as it may be accomplished by Real Green. These zip codes are covered by
paragraph 3) also.”13
18. The Court finds that the July 25, 2014 settlement
is clear and unambiguous and that the settlement
agreed upon by the parties, including but not limited
to the two (2) years non-compete agreement, refers to
new business, and not customer accounts awarded in
the Marital Settlement Agreement and final Judgment
of Dissolution of Marriage. (emphasis added).
19. Counsel for Petitioner and Counsel for Respondent stated to this Court that there is no caselaw in Missouri that addresses the issue of whether “customer
lists” are considered property within the context of
property division in a dissolution of marriage proceeding. Therefore, counsel stated to this Court that this is
a case of first impression in Missouri regarding this issue.

13

Petitioner’s Trial Exhibit 2.

100a
20. The Temporary Restraining Order (TRO) issued
by Judge Partney on September 1, 2016, ordered the
following: “a. Randall Zweifel or anyone acting in concert with him is hereby restrained from contacting directly or indirectly any customers and/or accounts
awarded to Petitioner either in the original Judgment
of May 1, 2012 or the subsequent Judgment of July 25,
2014; b. Respondent or anyone acting in concert with
him is hereby restrained from soliciting, directly or indirectly any customers and/or accounts awarded to Petitioner either in the original Judgment of May 1, 2012
or the subsequent Judgment of July 25, 2014; c. Respondent or anyone acting in concert with him is
hereby restrained from providing any services to any
of the customers and/or accounts awarded to Petitioner
whether either in the original Judgment of May 1,
2012 or the subsequent Judgment of July 25, 2014.”14
21. On October 11, 2016, Judge Partney modified the
TRO as follows: “1) Respondent is permitted to send a
letter to a specific list of accounts who contacted Respondent after the letter of late July 2016 for the purpose of arranging services, and said letter shall state:
“We cannot service your account at this time. We are
unable to provide additional information or discuss the
matter further; 2) With respect to any other accounts
who may contact Respondent or his company requesting service after the date of this Order Respondent
shall notify Petitioner through counsel of the name and
address of said account and when said contact was
14

Petitioner’s Exhibit 3.

101a
made and Respondent shall then send the same letter
to said account; 3) With respect to those accounts referred to paragraph 1) Respondent shall furnish a list
of all such accounts name and address, to whom the
letter will be sent; 4) In all other respects the terms of
the previous TRO shall remain in full effect until further Order of the Court.” 15
22. The Court finds that the Respondent serviced the
following zip codes in violation of the Judgment of Dissolution of Marriage, Marital Settlement Agreement,
subsequent settlement agreements between the parties, and prior Court Orders:
ZIP CODES AWARDED
TO PETITIONER
63010, 63021, 63052,
63122, 63124, 63131,
63141, 63301, 63303,
63304, 63341, 63349,
63362, 63366, 63367,
63368, 63376, 63379,
63385.16

ZIP CODES SERVICED
BY RESPONDENT IN
VIOLATION
63010, 63021, 63052,
63122, 63124, 63131,
63141, 63301, 63303,
63304, 63367, 63368,
63376, 63385.17

23. From the above chart in paragraph 22 of this
Judgment, the Court finds that Respondent serviced at

15

Judge Partney’s Order, dated October 11, 2016.
Petitioner’s Exhibit 1. (Note: these zip codes are in numerical order for chart purposes).
17
Trial Transcript, p. 208, line 13 to p.210, line 11; Petitioner’s Exhibit 118.
16

102a
least 363 residential accounts in zip codes awarded to
Petitioner.18
24. The Court finds that, despite ample testimony regarding the listing of miscellaneous commercial accounts, all parties knew and understood what was
meant by a “miscellaneous commercial account” and
that was any account coded by the letter “M.” The
Court finds that the list contained in Petitioner’s Exhibit 104a is the best evidence of a listing of all miscellaneous commercial accounts at the time of the divorce
of the parties.19 The Court finds that Petitioner had a
property interest in each miscellaneous commercial account as identified in Petitioner’s Exhibit 104a at the
time Petitioner filed her First Amended Third Motion
for Contempt.
25. The Court finds that, despite ample testimony regarding the listing of residential accounts, all parties
knew and understood what was meant by a residential
account. The Court finds that the list contained in Petitioner’s Exhibit 101 is the best evidence of a listing of
all residential accounts at the time of the divorce of the
parties.20 The Court finds that Petitioner had a property interest in each residential account as identified

18

Id.
Trial Transcript, p.65, line 2 to p.67, line 25; Petitioner’s
Exhibit 104a.
20
Trial Transcript, p.70, line 4 to p.71, line 13; Petitioner’s
Exhibit 101.
19

103a
in Petitioner’s Exhibit 101 at the time Petitioner filed
her First Amended Third Motion for Contempt.21
26. The Court finds that the Respondent mailed a
“We Want You Back” letter to customers of Petitioner.22
27. The Court finds that Respondent intentionally
sent the “We Want You Back” letter to the customers
who were awarded to Petitioner in either 2012 or 2014
in an attempt to take these accounts, by Respondent’s
own admission.23
28. The Court finds that the “We Want You Back” letter is misleading and false when it states: “Due to
circumstances beyond our control . . . ” Respondent admitted that he agreed to the Marital Settlement Agreement that divided the customer accounts in 2012.24 The
Respondent also admitted that those divided customer
accounts were “her property.”25
29. The Court finds that Respondent actively serviced residential accounts in each of the 19 zip codes
awarded to Linda in the 2012 Judgment, after the 2014
settlement, by Respondent’s own admission.26

21
22

Id.
Trial Transcript, p.1208, lines 4 to 11; Petitioner’s Exhibit

108.
23

Id.
Trial Transcript, p.1207, lines 13 to 18.
25
Trial Transcript, p.699, line 24 to p.700, p.4 (from transcript of the TRO hearing on August 31, 2016).
26
Trial Transcript, p.699, line 24 to p.700, line 7 (from transcript of the TRO hearing on August 31, 2016).
24

104a
30. The Court finds that Respondent, since 2012, has
added approximately 2,000 customers to his database
from drive-by estimates in those zip codes awarded to
Petitioner.27 The addresses are then maintained in Respondent’s database for solicitation purposes if he does
not sign them up initially. Importantly, these addresses
were residential accounts in zip codes awarded to Petitioner. The evidence established that Respondent was
actively using these addresses, which he had gathered
during drive-by estimates, to send solicitations even
though he was not supposed to be soliciting residential
accounts in Petitioner’s zip codes.28
31. The Court finds that Respondent sent solicitation
mailings to accounts which would be classified as residential during the time the non-compete clause was in
full force and effect.29
32. The Court finds that Respondent placed yard
signs in zip codes awarded to Petitioner.30
33. The Court finds that Respondent provided service
estimates to residential accounts in zip codes awarded
to Petitioner.31

27
28
29

Petitioner’s Exhibit 215(G) and 215(I).
Trial Transcript, p.66, lines 2 to 5; Petitioner’s Exhibit 104.
Petitioner’s Exhibits 111A, 111B, 111C, 111D, 202, and

204.
30
31

Trial Transcript, p.1113, lines 18 to 21.
Trial Transcript, p.1113, line 20 to 24.

105a
34. The Court finds that Respondent serviced at least
596 residential accounts in zip codes awarded to Petitioner.32
35. The Court rejects Respondent’s argument and excuse that it was ok to service customers who approached him for service and insisted that he provide
service to these customers. Respondent was fully
aware that these customer accounts were awarded to
Petitioner in the original Judgment of Dissolution of
Marriage and Marital Settlement Agreement. Respondent should have communicated to these customers that he cannot service their accounts at this time,
and the Respondent should have told these customers
that he is unable to provide additional information or
discuss the matter further.
36. The Court finds that the Respondent did not purchase the servicing of customers in existence at the
time of the July 25, 2014 settlement because said settlement refers to new customers and it states: “All
other terms of the parties divorce decree and settlement
shall remain in full force & effect.”33
37. The Court finds that the Respondent knew that
he did not purchase the servicing of customers from
Petitioner in existence at the time of the July 25, 2014
settlement because the language in said settlement is

32

Trial Transcript, p. 208, line 13 to p.210, line 11; Petitioner’s Exhibit 118.
33
Petitioner’s Exhibit 2.

106a
clear and unambiguous.34 Therefore, the Court finds
that the Respondent is not credible when he testified
that he believed that he purchased customers awarded
to Petitioner in the original Judgment of Dissolution of
Marriage and Marital Settlement Agreement. The
Court further finds that Respondent presented no
written agreement signed by the parties that a purchase of servicing of customer accounts had been made
at the time of the July 25, 2014 settlement.
38. The Court finds that the Respondent intentionally attempted to take customer accounts from Petitioner, in violation of the original Judgment of
Dissolution of Marriage and Marital Settlement
Agreement, given Respondent’s 35 years of experience
in the lawn care business, given Respondent’s actions,
including but not limited to the “We Want You Back”
letter sent to customers by Respondent and his employees described above.
39. The Court finds that the Respondent took customer accounts from Petitioner, in violation of the original Judgment of Dissolution of Marriage and Marital
Settlement Agreement, and this was the result of Respondent’s intentional and contumacious conduct.
40. The Court finds the Petitioner credible when she
testified that ten (10) years is the average length of

34

Id; and Trial Transcript, p.700, lines 21 to 25 (from transcript of the TRO hearing on August 31, 2016).

107a
time that a customer is serviced by Petitioner and Respondent.35
41. The Court finds that Respondent’s mailing of “We
Want You Back” letter amounts to Respondent’s intentional and contumacious conduct, in violation of the
Court’s Orders, Judgment of Dissolution of Marriage,
and Marital Settlement Agreement.
42. The Court finds that customers canceled service
with the Petitioner, after Respondent mailed the “We
Want You Back” letter.36
43. The Court finds from the evidence that the “We
Want You Back” letter caused customers to cancel service with the Petitioner.
44. The Court finds that the Petitioner suffered damages as a result of Respondent’s mailing of the “We
Want You Back” letter, and Respondent’s servicing of
customer accounts that were awarded to Petitioner in
the 2012 and 2014 Judgments.
45. The Court finds that the Petitioner is credible
when she testified that her damages includes an
amount of lost gross revenue of $1,429,000.00, from the
279 cancellations of customers caused by the Respondent’s actions.37

35

Trial Transcript, p. 232, lines 12 to 18.
Petitioner’s Exhibit 202.
37
Trial Transcript, p.234, line 22 to p.235, line 14, and Exhibit 202.
36

108a
46. The Court finds that the testimony of Respondent’s expert, Michael Morhaus, to be unpersuasive regarding his calculation of damages amount, based on
his review of the limited information provided to him.
Mr. Morhaus was not aware of all the relevant factors,
including but not limited to: the letters which were
sent by Respondent; the Court Orders entered which
pertained to whether or not Respondent could send
such mailings; the mailings, drive-by estimates, yard
signs, and other forms of solicitation that by the Respondent and his employees; this Court’s prior orders
concerning non-solicitation and non-compete; and, the
Judgment of Dissolution Of Marriage and terms of the
Marital Settlement Agreement.38
47. The Court finds that there are variable factors
that may have caused some customers to discontinue
services with Petitioner’s company, including but not
limited to: relocation, death, and/or financial constraints. The Court finds that these variable factors
should be deducted from gross revenue in calculating
damages from customer cancellations, and the Court
finds this deduction to be a 14% attrition rate, as testified by Respondent.39 This 14% attrition rate was for
the years of 2012 to 2017.40
48. The Court finds that Respondent’s expert, Michael Morhaus, credible when he testified that a sixtysix point two percent (66.2%) calculation for variable
38
39
40

Trial Transcript p.1047, line 18 to p.1056, line 20.
Trial Transcript, p.794, lines 4 to 13.
Trial Transcript, p.794, lines 14 to 18.

109a
expenses should be deducted from gross revenue in calculating net revenue.41
49. Based on the above percentages for deductions,
the Court calculates Petitioner’s damages as follows:
$1,429,000.00 (gross revenue lost)
- 200,060.00 (14% deduction-variable factors/
attrition rate that cause cancellations) $
1,228,940.00
- 813,558.28 (66.2% deduction for variable
expenses)
$ 415,381.72 (TOTAL DAMAGES-LOST NET
REVENUE).
50. The Court finds that Petitioner’s reasonable attorney’s fees for handling Petitioner’s First Amended
Third Motion For Contempt are ninety-four thousand
thirty-seven dollars and sixty-five cents ($94,037.65).42
51. The Court finds that Petitioner’s attorney’s fees
in the trademark case of Fifteen Thousand Three Hundred Twenty-Two Dollars and Fifty Cents ($15,322.50)
for time spent by Petitioner’s counsel for defense of this
aspect of the Federal trademark case will be addressed
in the trademark case by the Federal Court Judge.
52. The Court finds that the Petitioner did not fail to
mitigate damages, and the Court finds that the doctrine of laches, res judicata, and collateral estoppel do
not apply to the current litigation pending before this
Court.
41
42

Trial Transcript, p.1021, lines 3 to 7.
Petitioner’s Exhibit 217.

110a
53. The Court finds that the Respondent failed to
meet his burden regarding Respondent’s Counterclaim-Count I (Suit for Damages for Improvidently
Granted Injunctive Relief ).
54. The Court finds that the Respondent failed to
meet his burden of proof regarding Respondent’s Counterclaim-Count II (Breach of Separation Agreement).The Court finds Petitioner credible when she
testified that Flagstar repeatedly made mistakes in
crediting her payments, and this issue is an “ongoing
problem.”43 Respondent presented no evidence that the
delay in posting payments by Flagstar was Petitioner’s
fault, and not Flagstar’s mistakes.
55. The Court finds that Respondent’s CounterclaimCount III (Respondent’s Second Motion for Contempt)
fails because of the findings of fact in paragraph 54 of
this Judgment.
56. Regarding Respondent’s Counterclaim-Count IV
(Respondent’s Motion to Enforce Marital Separation
Agreement-return of Lawn Managers, Inc. Database),
the Court finds that the Respondent acknowledged
that both parties had access to the entire historical database when the accounts were divided on or about
May 1, 2012 and that this division was mutually consensual by Petitioner and Respondent and made with
full knowledge of the Petitioner and Respondent.44
Therefore, the Court finds that Respondent’s
43

Trial Transcript, p.1558, line 25 to p.1559, line 8.
Trial Transcript, p.711, line:8 to p.712, line 2 (Respondent’s testimony from transcript of hearing on November 17, 2017).
44

111a
Counterclaim-Count IV (Respondent’s Motion to Enforce Marital Separation Agreement-return of Lawn
Managers, Inc. Database) fails.
Conclusions Of Law
57. A party alleging contempt establishes a prima facie case for civil contempt when the party proves: (1)
the contemnor’s obligation to perform an action as required by the decree; and (2) the contemnor’s failure to
meet the obligation.45 The alleged contemnor then has
the burden of proving that person’s failure to act was
not due to his or her own intentional and contumacious
conduct.46
58. These principles of civil contempt apply to domestic relations disputes.47
59. Civil contempt is for the protection of a party to
the litigation, the party for whose benefit the order,
judgment or decree was entered. Its function is to provide a coercive means to compel the other party to the
litigation to comply with relief granted to his or her
adversary. The civil contemnor has at all times the

45

Walters v. Walters, 181 S.W.3d 135 (2005 Mo.App.2005);
Love v. Love, 75 S.W.3d 747, 754 (Mo. App. 2002). Love at 759
(citing Lyons v. Sloop, 40 S.W.3d 1, 10 (Mo. App. 2001).
46
Id. at 759-60; Walters v. Walters, 181 S.W.3d 135 (2005
Mo.App.2005).
47
Teefey v. Teefey, 533 S.W.2d 563 (Mo. banc 1976).

112a
power to terminate his punishment by compliance
with the order of the court – i.e.: purging.48
60. In a dissolution proceeding, “The court’s order as
it affects distribution of marital property shall be a final order not subject to modification . . . ”49
61. This Court notes that in Chapter 452 of the Revised Statutes of Missouri, titled: “Dissolution Of Marriage, Divorce, Alimony And Separate Maintenance,” a
definition of “Property” is not provided.
62. The Statement of Property form that is included
in the Civil Procedure Forms, provided by the Missouri
Supreme Court for a Dissolution proceeding, includes
a section for “Business” and is required to be listed, if
applicable.50
63. Missouri’s Criminal Code has the following definition: “Property,” anything of value, whether real or
personal, tangible or intangible, in possession of in action.51
64. In interpreting a separation agreement incorporated into a decree, the “normal rules of contract

48

Id.
§452.330.5 RSMo.; Leslie v. Leslie, 827 S.W.2d 180
(Mo.1992), cited in Lindo v. Higginbotham, 517 S.W.3d 558
(Mo.App.2016).
50
Form CAFCO40 in the Civil Procedure Forms section of
the Missouri Supreme Court and 23rd Judicial Circuit Local Rule
68.4.
51
51 §556.061(39) RSMo.
49

113a
construction apply . . . ”52 “When the language of a provision is in dispute, the court must determine the parties’ intent as manifested in the document itself and
not by what the parties say they intended.”53 This is
done by giving the words of the agreement their plain
and ordinary meaning as understood by a reasonable
and average person.54 It is only when the language of
the decree is ambiguous that a court may determine
the interpretation of the settlement agreement by reference to evidence beyond the face of the decree itself.55
65. Every contract, combination or conspiracy in restraint of trade or commerce in this state is unlawful.56
66. A restrictive covenant that restrains trade may
be enforced in Missouri if it is directed to the protection
of trade secrets or customer contacts, and if it is reasonable as to time and place.57 For reasons stated in
paragraph 70f. of this Judgment, the Court finds that
the Martial Settlement Agreement of the parties is not
a restrictive covenant that restrains trade.

52

Daily v. Daily, 912 S.W.2d 110, 114 (Mo. App. 1995) (citing
Blackman v. Blackman, 767 S.W.2d 54, 59 (Mo. App. 1989)).
53
Id.
54
Id.
55
Hughes v. Hughes, 23 S.W.3d 838 (Mo.App.2000); Bolton
v. Bolton, 950 S.W.2d 268, 271 (Mo. App. 1987).
56
§416.031 RSMo.
57
Schmersahl, Treloar & Co., P.C. v. McHugh, 28 S.W.3d
345, (Mo.App.2000); Easy Returns Midwest v. Schultz, 964
S.W.2d 450, Mo.App.1998).

114a
67. The doctrine of res judicata renders a judgment
conclusive in a subsequent action between the same
parties, not only as to all issues tried, but as to all issues which might have been litigated.58 The Court
finds that the doctrine of “Res Judicata” does not apply
to the current pending issues in this case because there
was information found by Petitioner, after the July
2014 settlement, that if known prior to the July 2014
settlement, may have been litigated, as part of Petitioner’s Second Motion For Contempt proceedings.
68. Collateral estoppel, or issue preclusion, precludes
the same parties, or those in privity with the parties,
from relitigating issues that have been previously litigated.59 In deciding whether the application of collateral estoppel is proper, the following four factors are
considered: (1) whether the issue in the present case is
identical to the issue decided in the prior adjudication;
(2) whether the prior adjudication resulted in a judgment on the merits; (3) whether the party against
whom collateral estoppel is asserted was a party, or
was in privity with a party, to the prior adjudication;
and (4) whether the party against whom collateral estoppel is asserted had a full and fair opportunity to litigate the issue in the prior adjudication.60 The Court
finds that the doctrine of “Collateral Estoppel” does not
58

Foster v. Foster, 39 S.W.3d 523 (Mo.App.2001); Huska v.
Huska, 721 S.W.2d 120 (Mo.App.1986).
59
Major v. Frontenac Industries, Inc., 968 S.W.2d 758
(Mo.App.1998).
60
Wilkes v. St. Paul Fire & Marine Ins. Co., 92 S.W.3d 116,
(Mo.App.2002).

115a
apply to the current pending issues in this case because there was information found by Petitioner, after
the July 2014 settlement, that if known prior to the
July 2014 settlement, may have been litigated, as part
of Petitioner’s Second Motion For Contempt proceedings. Therefore, Petitioner did not have a full and fair
opportunity to litigate the issue in the prior adjudication because said newly found information was not
known to Petitioner prior to the July 2014 settlement.
69. The equitable doctrine of laches may be invoked
when a party has knowledge of his or her rights but
unreasonably fails to assert those rights for an excessive period of time, resulting in legal detriment to the
other party.61 This doctrine is disfavored, and its primary use is to prevent injustice.62 The Court finds that
the Petitioner reasonably asserted her rights in a reasonable amount of time, not to the legal detriment of
the Respondent because of an excessive period of time,
and given the history of this case.
70. This Court makes the same findings in the prior
Order, dated December 4, 2017, that denied Respondent’s motion for summary judgment, and the Court
finds that the “Customer Lists,” “Customer Accounts,”
and/or “Accounts Receivable” were marital property
that was divided in the above-captioned cause in the
original proceeding, and therefore not subject to modification, for the following reasons:

61
62

Janes v. Janes, 242 S.W.3d 744 (Mo. App.2007).
Id.

116a
a. The Statement of Property form in a Dissolution proceeding has a section for “Business” to be
listed, if applicable;
b. Each party filed a Statement of Property in
the original dissolution proceedings that listed the
lawn care business as an asset to be divided.
c. The Separation Agreement of the parties, under Section 5.02 Division of Accounts and Accounts Receivables, clearly and unambiguously,
divides among the parties: current commercial accounts and accounts receivables, and current residential accounts and receivables by zip code. As
such, the parties divided “Business Assets” that
were part of the “Business Interest” as “property”
in the original dissolution proceedings.
d. This Court finds that “Customer lists,” “Customer Accounts,” and/or “Accounts Receivable”
from a service business have value, intangible or
tangible, and as such, are property in the context
of a dissolution of marriage case;
e. The “Business Interest,” referred to by the parties in their separation agreement, is a lawn care
business that is a “service” to customers, and as
such this Court finds that the “service” to customers is the property that was divided in the separation agreement of the parties. The “Customer
lists,” “Customer Accounts,” and/or “Accounts Receivable” are a necessary part of the lawn care service business to provide said “service.”
f. The Court finds that Section 5.02 Division of
Accounts and Accounts Receivables, is not in violation of free trade and not in violation of restraint

117a
of trade because Respondent was eventually allowed to solicit new business, within a reasonable
time, in the zip codes initially awarded to Petitioner in the Separation Agreement of May 2012
and Settlement agreement of July 2014. Further,
the Court finds that the Judgment Of Decree of
Dissolution of Marriage and Marital Settlement
Agreement does not prevent current customers of
Petitioner and Respondent from seeking similar
lawn care services from a lawn care business,
other than the parties in this action. There are ten
(10) major competitors in the St. Louis area, but
there is hundreds that provide this same lawn
care service offered by the companies of Petitioner
and Respondent. Therefore this division of customer accounts does not result in a treatment that
is an unlawful restraint of trade.
g. The Court finds that Section 5.06 Development of New Business of the Separation Agreement of the parties, clearly and unambiguously,
addresses “new business” (emphasis added), and
that the non-solicitation provision is limited in
time, scope, and geography by zip code, therefore
not in violation of free trade and not in violation of
restraint of trade.
71. As between the Petitioner and Respondent, this
Court further finds that Petitioner has, and will continue to have, in perpetuity, a property interest in the
miscellaneous commercial accounts awarded to her in
the 2012 Marital Separation Agreement. Further, Petitioner has, and will continue to have, in perpetuity, a
property interest in the residential accounts awarded
to her in zip codes 63010, 63021, 63038, 63040, 63052,

118a
63122, 63124, 63131, 63141, 63301, 63303, 63304,
63341, 63349, 63362, 63366, 63367, 63368, 63376,
63379, 63385, along with the customer accounts transferred from Respondent to Petitioner by the 2014 settlement in the zip codes of: 63038 (Ellisville Area) and
63040 (Grover Area). This Court further finds that Respondent has, and will continue to have, in perpetuity,
a property interest in the customer accounts awarded
to him in the 2012 Marital Separation Agreement.
72. The Court finds that any sale, transfer, and/or
purchase of the servicing of customer accounts described in paragraph 71 of this Judgment must be in
writing between the parties.
73. This Court finds that the two (2) years non-compete provision has expired and that the parties can
now solicit new business in any zip code, but the parties are not allowed to solicit the customer accounts
awarded to the parties in the 2012 and 2014 Judgments. Therefore, mass mailings by the parties is allowed for new business in any zip code, with the caveat
that the customer accounts awarded in said prior
Judgments are not to be solicited and targeted.
74. This Court hereby GRANTS Petitioner’s First
Amended Third Motion For Contempt for the following
reasons:
a. Per the Marital Separation Agreement of the
parties and prior Judgment Of Decree of Dissolution of Marriage, this Court finds that the Respondent, RANDALL ZWEIFEL, was required to
perform certain obligations as required by the

119a
decree, specifically to only service zip code accounts that were awarded as property to the Respondent, and Respondent was not to service zip
code accounts awarded as property to Petitioner in
the Judgment And Decree of Dissolution of Marriage.
b. This Court finds that the Respondent, RANDALL ZWEIFEL, failed to meet his obligations,
per the Separation Agreement of the parties and
prior Judgment And Decree of Dissolution of Marriage because the Respondent serviced zip code accounts that were awarded to Petitioner as
property in the Judgment And Decree of Dissolution of Marriage.
c. This Court finds that Respondent’s actions and
failure to act per his obligations, were due to his
own intentional and contumacious conduct, given
the evidence adduced at trial, specifically: Respondent serviced residential accounts in the zip
codes that were awarded to Petitioner; Respondent serviced residential accounts in zip codes
awarded to Petitioner; Since July 25, 2014, Respondent, individually and through his employees,
solicited, signed up and serviced new residential
accounts in zip codes awarded to Petitioner, both
from the original divorce decree, and also awarded
in the Judgment of July 25, 2014, in violation of
the non-compete provision the 2014 Order.
d. Since July 25, 2014, Respondent serviced residential accounts awarded to Petitioner either in
2012 or in 2014, and given Respondent’s 35 years
of experience in the lawn care business, Respondent intentionally miscoded said residential

120a
accounts to appear as though they are commercial
accounts in order to evade the clear intent of the
Court’s Orders.
e. Respondent sent a false and misleading mailing in the form of a “We Want You Back” letter, directly to residential accounts owned by Petitioner,
knowing that these accounts were property
awarded to Petitioner. Such mailing was intentionally designed to cause Petitioner’s accounts to
cancel their contracts with Petitioner and instead
sign contracts with Respondent, all with the intent
to damage Petitioner.
f. This Court also notes that the Respondent was
previously found in contempt by Judge Lisa Page,
albeit for different reasons, and therefore this
Court finds that Respondent has exhibited a pattern of conduct that blatantly disobeys Court Orders.
75. Based on the evidence presented, this Court
hereby DENIES Respondent’s alleged affirmative defenses, and this Court finds as follows: that the federal
district court does not have exclusive jurisdiction over
the issues in this case; that Petitioner did not fail to
mitigate damages; that Petitioner has standing to recover damages for the loss of any residential account
or account receivable; that Petitioner’s legal interpretation of Section 5.02 of the settlement agreement and
decree of dissolution is correct as a matter of law; that
Petitioner has clean hands in her Third Motion For
Contempt; that Petitioner’s interpretation of Section
5.02 of the settlement agreement and decree of dissolution does not result in a treatment of the division of

121a
accounts that is an unlawful restraint of trade, as described above; that the July 25, 2014 Order and Judgment is not ambiguous; and Respondent has failed to
meet his burden of proof that the Petitioner is not entitled to an injunction or any other equitable relief because Petitioner has unclean hands.
76. Based on the evidence presented, this Court
hereby DENIES Respondent’s Counterclaim-Count I
(Suit for Damages for Improvidently Granted Injunctive Relief ), this Court hereby DENIES Respondent’s
Counterclaim-Count II (Breach of Separation Agreement), this Court hereby DENIES Respondent’s Counterclaim-Count III (Respondent’s Second Motion for
Contempt), and this Court hereby DENIES Respondent’s Counterclaim-Count IV (Respondent’s Motion to
Enforce Marital Separation Agreement).
77. Once liability for civil contempt is established,
damages are calculated as follows: The existence of lost
profits must be demonstrated with “reasonable certainty” and “must rest upon more than mere speculation.”63
78. Lost revenue must be estimated and expenses
tied to the production of the revenue must be deducted.64
79. The Court finds that the Petitioner demonstrated
with “reasonable certainty” her lost profits, based on
63

AmeristarJet Charter, Inc. v. Dodson Int’l Parts, Inc., 155
S.W.3d 50, 54 (Mo. banc 2005).
64
Id.

122a
her familiarity with the lawn care business that she
has conducted for many years.
80. The Court finds that the calculation of damages
in paragraph 49 of this Judgment is an accurate calculation of Petitioner’s damages.
81. “Under both common law nunc pro tunc jurisprudence and Rule 74.06(a), ‘[a] presumption exists that
there are no clerical errors in judgments.’ ” McGuire v.
Kenoma, LLC, 447 S.W. 3d 659, 665 (Mo.banc 2014)
(citing Pirtle v. Cook, 956 S.W. 2d 235, 243 (Mo.banc
1997)). Nunc pro tunc lies only to correct a clerical mistake. 447 S.W. 3d at 663. A “clerical mistake” is one that
does not effect a substantive change in a party’s rights.
Id. The evidence must “ ‘in some way show, either from
the judge’s minutes, the clerk’s entries or some other
paper in the cause, the facts authorizing such [nunc
pro tunc] entries.’ ” Id. at 665 (citing Childers v. State,
502 S.W. 2d 249, 251 (Mo.1973). Id.
82. The Court finds that there was a clerical error in
the list of miscellaneous commercial accounts that was
to be attached to the Judgment Of Decree of Dissolution of Marriage and Marital Settlement Agreement,
and that a nunc pro tunc is necessary to correct the
official record.
JUDGMENT
83. NOW THEREFORE, BASED ON THE FOREGOING FINDINGS OF FACT AND CONCLUSIONS OF
LAW, THIS COURT HEREBY FINDS THE

123a
RESPONDENT, RANDALL ZWEIFEL, IN CONTEMPT AND THIS COURT ENTERS JUDGMENT IN
FAVOR OF THE PETITIONER, LINDA R. ZWEIFEL,
n/k/a LINDA R. SMITH, AND AGAINST THE RESPONDENT, RANDALL ZWEIFEL, IN THE
AMOUNT OF: $415,381.72 FOR DAMAGES.
84. THE COURT HEREBY ORDERS THAT THE
AMOUNT OF MONEY DEPOSITED BY THE RESPONDENT, PER THE COURT ORDER, DATED NOVEMBER 17, 2017, BE RELEASED AND
DISTRIBUTED, CONSISTENT WITH THIS JUDGMENT.
85. THE COURT HEREBY ORDERS THAT THE
PARTIES CAN SEND MASS MAILERS TO POTENTIAL NEW CUSTOMER ACCOUNTS (NOT
AWARDED TO THE PARTIES IN THE 2012 AND
2014 JUDGMENTS), FROM THE DATE OF THIS
JUDGMENT. IF A CUSTOMER OF AN ACCOUNT
THAT WAS AWARDED TO THE OTHER PARTY, REQUESTS SERVICE FROM THE NON-AWARDED
PARTY, THE NON-AWARDED PARTY SHALL COMMUNICATE TO SAID CUSTOMER THAT HE/SHE
CANNOT SERVICE THEIR ACCOUNTS AT THIS
TIME, AND THAT HE/SHE IS UNABLE TO PROVIDE ADDITIONAL INFORMATION OR DISCUSS
THE MATTER FURTHER.65
86. NOW THEREFORE, BASED ON THE FOREGOING FINDINGS OF FACT AND CONCLUSIONS OF
65

See the language in the Modified TRO, signed by Judge
Travis Partney on October 11, 2016.

124a
LAW, THIS COURT HEREBY ENTERS JUDGMENT
IN FAVOR OF THE PETITIONER, LINDA R.
ZWEIFEL, n/k/a LINDA R. SMITH, AND AGAINST
THE RESPONDENT, RANDALL ZWEIFEL, IN THE
AMOUNT OF: $94,037.65, AS AND FOR REASONABLE ATTORNEY’S FEES, payable directly to the law
firm of: Roberts, Wooten & Zimmer, 10438 Business
Highway 21, P.O. Box 888, Hillsboro, Missouri 63050.
This Court will consider Petitioner’s counsel amended
fees request that includes any time devoted to this
matter since the trial.
87. The Court hereby GRANTS Petitioner’s Motion
To Amend And/Or Correct The Record Nunc Pro Tunc,
efiled on October 24, 2017, and therefore the Court
hereby orders, in the above captioned cause, that the
Judgment and Decree of Dissolution of Marriage reflect the attachment to be the Marital Settlement
Agreement executed by each of the parties, Randy
Zweifel on April 17, 2012 and Linda Zweifel on April
10, 2012, including Petitioner’s Exhibit 104a (miscellaneous commercial accounts), is the official Judgment of
this Court for the parties’ Decree of Dissolution.66

66

Petitioner’s Exhibit 1 and Petitioner’s Exhibit 104a.

125a
DATED: November 20, 2018
SO ORDERED:
/s/

Tony Manansala
Nov 20, 2018, 5:15 pm|12
Antonio (Tony) Manansala
Associate Circuit Judge
Division 12

126a
APPENDIX G
IN THE CIRCUIT COURT OF THE
23RD JUDICIAL CIRCUIT STATE OF MISSOURI,
AT HILLSBORO, MISSOURI
LINDA R. ZWEIFEL,
n/k/a LINDA SMITH
Petitioner,
v.
RANDALL ZWEIFEL,
Respondent.

)
)
)
)
)
)
)
)

Cause Number:
09JE-DR00715-01
Division Number: 1

ORDER AND JUDGMENT
(Filed Aug. 24, 2020)
Randall Zweifel appealed from the contempt judgment entered against him for conduct his ex-wife
Linda Smith claimed violated the dissolution judgments. The Court of Appeals reversed the state court
judgment.
On November 20, 2018, Judge Antonio (Tony)
Manansala entered the judgment that went on appeal,
granting the amended motion for contempt and denying all defenses and counterclaims. The state court
concluded that Section 5.02 of the 2012 MSA and Judgment—dividing the commercial and residential accounts and accounts receivable—was a division of
business assets, which like any division of marital
property, is “not subject to modification.” The state
court concluded that the parties have and “will

127a
continue to have, in perpetuity, a property interest” in
the customer accounts awarded to each of them in 2012
and 2014. The state court found the 2012 MSA and
Judgment and the 2014 Settlement and Judgment obligated Zweifel “to only service zip code accounts that
were awarded as property to [him] . . . and not to service zip code accounts awarded as property to [Smith].”
The non-solicitation and non-competition provisions
therein, it concluded, applied only to “new business”
and not the customer accounts awarded in the division
of property. Once those provisions expired, the state
court found, the parties were permitted to solicit new
business in any zip code, but could not “solicit the customer accounts awarded to the parties” in 2012 and
2014.
Thus, the state court held Zweifel in contempt for
servicing existing residential accounts in Smith’s zip
codes and soliciting Smith’s existing residential accounts with the “We Want You Back” letter—all in violation of the 2012 MSA and Judgment and the 2014
Settlement and Judgment. The state court also found
that since 2014, Zweifel solicited, signed up and serviced new residential accounts in zip codes awarded to
Smith in violation of the non-compete in the 2014 Settlement and Judgment. The state court found Zweifel’s
conduct to be intentional and contemptuous. The state
court ordered him to pay Smith damages in the
amount of $415,381.72, based on her lost profits, and
attorney fees. The appeal followed.
The court of appeals found that all of the issues on
appeal relate solely to Zweifel’s soliciting and servicing

128a
of residential customer accounts that existed at the
time of the dissolution and were awarded to Smith.
That higher court found that because the judgments
do not clearly and unambiguously set forth any particular directive with respect to one party’s conduct with
the existing customer accounts awarded to the other,
the state court’s permanent prohibition on competition
with those customers was imposed by implication and
found it impermissible to hold Zweifel in contempt of
that implied provision. See Wuebbeling, 574 S.W.3d at
328.
Our conclusion on that question is that they were
not and therefore it was error to hold him in contempt
for soliciting and servicing the existing residential accounts awarded to Smith. The court of appeals did not
conclude that Zweifel’s conduct was permissible under
the 2012 MSA and Judgment or the 2014 Settlement
and Judgment—only that the prior judgments were
too vague for the trial court to have determined that
the conduct was contemptuous. The trial courts judgment must be reversed to the extent it held Zweifel in
contempt for soliciting and servicing existing customer
accounts awarded to Smith in the 2012 MSA and Judgment and the 2014 Settlement and Judgment.
In light of the mandate of the appellate
court, this court makes the following finding, order and judgment:
1.

The judgment of the state court as entered by Judge Antonio (Tony) Manansala on the 20th day of November,

129a
2018, is reversed, that holds Zweifel in
contempt of court for soliciting and servicing existing customers accounts
awarded to Smith in the 2021 MSA Judgment and the 2014 Settlement and Judgment;
2.

The judgment of the state court as entered by Judge Antonio (Tony) Manansala on the 20th day of November, 2018
awarding $415,381.72 to Ms. Smith based
on damages that Smith claimed she had
sustained is hereby set aside and this
court orders the release of the supersedeas bond posted herein to Mr. Zweifel;

3.

The court orders the release of all the
funds held in the registry of this court to
be paid out to Mr. Zweifel;

4.

In addition to the costs on appeal that
the mandate directed to be taxed in Mr.
Zweifel’s favor in the amount of
$7,395.50, he is also entitled to court
costs in this court because he is the prevailing party.

SO ORDERED:
/s/ Joseph A. Rathert
Judge Joseph A. Rathert
Division #1
23rd Judicial Circuit

8-24-20
Date:

130a
APPENDIX H
15 U.S.C. § 1055. Use by related companies
affecting validity and registration
Where a registered mark or a mark sought to be registered is or may be used legitimately by related companies, such use shall inure to the benefit of the
registrant or applicant for registration, and such use
shall not affect the validity of such mark or of its registration, provided such mark is not used in such manner as to deceive the public. If first use of a mark by a
person is controlled by the registrant or applicant for
registration of the mark with respect to the nature and
quality of the goods or services, such first use shall inure to the benefit of the registrant or applicant, as the
case may be.

15 U.S.C. § 1064. Cancellation of registration
Effective: October 6, 2006
A petition to cancel a registration of a mark, stating
the grounds relied upon, may, upon payment of the prescribed fee, be filed as follows by any person who believes that he is or will be damaged, including as a
result of a likelihood of dilution by blurring or dilution
by tarnishment under section 1125(c) of this title, by
the registration of a mark on the principal register established by this chapter, or under the Act of March 3,
1881, or the Act of February 20, 1905:
(1) Within five years from the date of the registration of the mark under this chapter.

131a
(2) Within five years from the date of publication
under section 1062(c) of this title of a mark registered under the Act of March 3, 1881, or the Act of
February 20, 1905.
(3) At any time if the registered mark becomes
the generic name for the goods or services, or a portion thereof, for which it is registered, or is functional, or has been abandoned, or its registration
was obtained fraudulently or contrary to the provisions of section 1054 of this title or of subsection
(a), (b), or (c) of section 1052 of this title for a registration under this chapter, or contrary to similar
prohibitory provisions of such prior Acts for a registration under such Acts, or if the registered mark
is being used by, or with the permission of, the registrant so as to misrepresent the source of the
goods or services on or in connection with which
the mark is used. If the registered mark becomes
the generic name for less than all of the goods or
services for which it is registered, a petition to cancel the registration for only those goods or services
may be filed. A registered mark shall not be
deemed to be the generic name of goods or services
solely because such mark is also used as a name of
or to identify a unique product or service. The primary significance of the registered mark to the relevant public rather than purchaser motivation
shall be the test for determining whether the registered mark has become the generic name of
goods or services on or in connection with which it
has been used.
(4) At any time if the mark is registered under
the Act of March 3, 1881, or the Act of February 20,

132a
1905, and has not been published under the provisions of subsection (c) of section 1062 of this title.
(5) At any time in the case of a certification mark
on the ground that the registrant (A) does not control, or is not able legitimately to exercise control
over, the use of such mark, or (B) engages in the
production or marketing of any goods or services
to which the certification mark is applied, or (C)
permits the use of the certification mark for purposes other than to certify, or (D) discriminately
refuses to certify or to continue to certify the goods
or services of any person who maintains the standards or conditions which such mark certifies:
Provided, That the Federal Trade Commission may apply to cancel on the grounds specified in paragraphs (3)
and (5) of this section any mark registered on the principal register established by this chapter, and the prescribed fee shall not be required.
Nothing in paragraph (5) shall be deemed to prohibit
the registrant from using its certification mark in advertising or promoting recognition of the certification
program or of the goods or services meeting the certification standards of the registrant. Such uses of the certification mark shall not be grounds for cancellation
under paragraph (5), so long as the registrant does not
itself produce, manufacture, or sell any of the certified
goods or services to which its identical certification
mark is applied.

133a
15 U.S.C. § 1127. Construction and definitions;
intent of chapter
Effective: October 6, 2006
In the construction of this chapter, unless the contrary
is plainly apparent from the context –
The United States includes and embraces all territory
which is under its jurisdiction and control.
The word “commerce” means all commerce which may
lawfully be regulated by Congress.
The term “principal register” refers to the register provided for by sections 1051 to 1072 of this title, and the
term “supplemental register” refers to the register provided for by sections 1091 to 1096 of this title.
The term “person” and any other word or term used to
designate the applicant or other entitled to a benefit or
privilege or rendered liable under the provisions of this
chapter includes a juristic person as well as a natural
person. The term “juristic person” includes a firm, corporation, union, association, or other organization capable of suing and being sued in a court of law.
The term “person” also includes the United States, any
agency or instrumentality thereof, or any individual,
firm, or corporation acting for the United States and
with the authorization and consent of the United
States. The United States, any agency or instrumentality thereof, and any individual, firm, or corporation
acting for the United States and with the authorization and consent of the United States, shall be subject

134a
to the provisions of this chapter in the same manner
and to the same extent as any nongovernmental entity.
The term “person” also includes any State, any instrumentality of a State, and any officer or employee of a
State or instrumentality of a State acting in his or her
official capacity. Any State, and any such instrumentality, officer, or employee, shall be subject to the provisions of this chapter in the same manner and to the
same extent as any nongovernmental entity.
The terms “applicant” and “registrant” embrace the legal representatives, predecessors, successors and assigns of such applicant or registrant.
The term “Director” means the Under Secretary of
Commerce for Intellectual Property and Director of the
United States Patent and Trademark Office.
The term “related company” means any person whose
use of a mark is controlled by the owner of the mark
with respect to the nature and quality of the goods or
services on or in connection with which the mark is
used.
The terms “trade name” and “commercial name” mean
any name used by a person to identify his or her business or vocation.
The term “trademark” includes any word, name, symbol, or device, or any combination thereof –
(1)

used by a person, or

(2) which a person has a bona fide intention
to use in commerce and applies to register on

135a
the principal register established by this
chapter,
to identify and distinguish his or her goods, including
a unique product, from those manufactured or sold by
others and to indicate the source of the goods, even if
that source is unknown.
The term “service mark” means any word, name, symbol, or device, or any combination thereof –
(1)

used by a person, or

(2) which a person has a bona fide intention
to use in commerce and applies to register on
the principal register established by this
chapter,
to identify and distinguish the services of one person,
including a unique service, from the services of others
and to indicate the source of the services, even if that
source is unknown. Titles, character names, and other
distinctive features of radio or television programs
may be registered as service marks notwithstanding
that they, or the programs, may advertise the goods of
the sponsor.
The term “certification mark” means any word, name,
symbol, or device, or any combination thereof –
(1)

used by a person other than its owner, or

(2) which its owner has a bona fide intention
to permit a person other than the owner to use
in commerce and files an application to register on the principal register established by
this chapter,

136a
to certify regional or other origin, material, mode of
manufacture, quality, accuracy, or other characteristics
of such person’s goods or services or that the work or
labor on the goods or services was performed by members of a union or other organization.
The term “collective mark” means a trademark or service mark –
(1) used by the members of a cooperative, an
association, or other collective group or organization, or
(2) which such cooperative, association, or
other collective group or organization has a
bona fide intention to use in commerce and
applies to register on the principal register
established by this chapter,
and includes marks indicating membership in a union,
an association, or other organization.
The term “mark” includes any trademark, service
mark, collective mark, or certification mark.
The term “use in commerce” means the bona fide use
of a mark in the ordinary course of trade, and not made
merely to reserve a right in a mark. For purposes of
this chapter, a mark shall be deemed to be in use in
commerce –
(1)

on goods when –
(A) it is placed in any manner on the
goods or their containers or the displays
associated therewith or on the tags or
labels affixed thereto, or if the nature of

137a
the goods makes such placement impracticable, then on documents associated
with the goods or their sale, and
(B) the goods are sold or transported in
commerce, and
(2) on services when it is used or displayed
in the sale or advertising of services and the
services are rendered in commerce, or the services are rendered in more than one State or
in the United States and a foreign country
and the person rendering the services is engaged in commerce in connection with the services.
A mark shall be deemed to be “abandoned” if either of
the following occurs:
(1) When its use has been discontinued with
intent not to resume such use. Intent not to
resume may be inferred from circumstances.
Nonuse for 3 consecutive years shall be prima
facie evidence of abandonment. “Use” of a
mark means the bona fide use of such mark
made in the ordinary course of trade, and not
made merely to reserve a right in a mark.
(2) When any course of conduct of the owner,
including acts of omission as well as commission, causes the mark to become the generic
name for the goods or services on or in connection with which it is used or otherwise to lose
its significance as a mark. Purchaser motivation shall not be a test for determining abandonment under this paragraph.

138a
The term “colorable imitation” includes any mark
which so resembles a registered mark as to be likely to
cause confusion or mistake or to deceive.
The term “registered mark” means a mark registered
in the United States Patent and Trademark Office under this chapter or under the Act of March 3, 1881, or
the Act of February 20, 1905, or the Act of March 19,
1920. The phrase “marks registered in the Patent and
Trademark Office” means registered marks.
The term “Act of March 3, 1881”, “Act of February 20,
1905”, or “Act of March 19, 1920”, means the respective
Act as amended.
A “counterfeit” is a spurious mark which is identical
with, or substantially indistinguishable from, a registered mark.
The term “domain name” means any alphanumeric
designation which is registered with or assigned by
any domain name registrar, domain name registry, or
other domain name registration authority as part of an
electronic address on the Internet.
The term “Internet” has the meaning given that term
in section 230(f )(1) of Title 47.
Words used in the singular include the plural and vice
versa.
The intent of this chapter is to regulate commerce
within the control of Congress by making actionable
the deceptive and misleading use of marks in such
commerce; to protect registered marks used in such

139a
commerce from interference by State, or territorial legislation; to protect persons engaged in such commerce
against unfair competition; to prevent fraud and deception in such commerce by the use of reproductions,
copies, counterfeits, or colorable imitations of registered marks; and to provide rights and remedies stipulated by treaties and conventions respecting trademarks,
trade names, and unfair competition entered into between the United States and foreign nations.

28 U.S.C. § 1652. State laws as rules of decision
The laws of the several states, except where the Constitution or treaties of the United States or Acts of Congress otherwise require or provide, shall be regarded
as rules of decision in civil actions in the courts of the
United States, in cases where they apply.

140a
APPENDIX I
IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
LAWN MANAGERS, INC.,
a Missouri Corporation,
Plaintiff,
v.
PROGRESSIVE LAWN
MANAGERS, INC.,
a Missouri Corporation,
Defendant.

)
)
)
)
)
)
)
)
)
)

Cause No.:

COMPLAINT
Comes now plaintiff, Lawn Managers, Inc. (“Lawn
Managers”), and for its Complaint against defendant
Progressive Lawn Managers, Inc. (“Progressive”),
states as follows:
Parties
1. Plaintiff Lawn Managers is a Missouri corporation in good standing, organized and existing under
the laws of the State of Missouri, with its principal
place of business located in Jefferson County, Missouri.
2. Defendant Progressive is a Missouri corporation in good standing, organized and existing under the
laws of the State of Missouri, with its principal place
of business located in St. Louis County, Missouri.

141a
Jurisdiction and Venue
3. This Court has original subject matter jurisdiction over this controversy pursuant to 15 USC Section 1121, and 28 USC Sections 1331 1338, and 1367,
in that plaintiff brings this action for trademark infringement pursuant to the Federal Trademark Act of
1946, 15 USC Section 1051, et seq.
4. This Court has personal jurisdiction over the
defendant, and venue is proper in this District and Division pursuant to 28 USC Section 1391(b) and (c), in
that defendant Progressive is a Missouri corporation
with its principal place of business in St. Louis County,
Missouri.
5. Lawn Managers is the owner of a federal
trademark for the name “Lawn Managers”. Registration No. 4826435, Registration granted October 6,
2015, and for a design mark incorporating the name
“Lawn Managers,” Registration No. 4189623, granted
August 14, 2012. Copies of the two registrations are
attached hereto as Exhibit A and Exhibit B, respectively.
6. Since 1979, Lawn Managers has operated a
lawn service and tree service business in St. Louis City,
St. Louis County, Jefferson County and surrounding
areas.
7. Prior to approximately 2012, the principal of
Progressive was a part of Lawn Managers’ business.
8. Pursuant to a divorce settlement agreement
between the principal of Lawn Managers and the

142a
principal of Progressive, the principal of Progressive
left the business and started a competing business in
2012, under the name “Progressive Lawn Managers”.
9. Pursuant to a subsequent agreement in 2014,
Progressive had permission to use the name “Lawn
Managers” until December 31, 2014, at which time its
permission to use the name ended. Progressive no
longer has the right to use the name “Lawn Managers,”
as its license to do so expired on December 31. 2014.
10. Pursuant to the agreements between the
principals of the two companies. Lawn Managers and
Progressive divided their areas of operation with regard to residential customers, by zip code, and agreed
not to solicit residential customers in the other’s designated area, with this agreement to remain in effect
until July 25, 2016. However, Progressive has incorporated meta-text into its website and other on-line listings offering services in zip codes and corresponding
municipalities which were reserved to Lawn Managers
under the parties’ agreements, in violation of the
agreement.
11. Progressive has continued to use the name
“Lawn Managers” and has filed and maintains a fictitious name registration claiming to own the name.
12. Lawn Managers uses a single phone number,
636-671-7077.
13. Progressive uses a number of phone numbers, including 636-281-1145, 636-281-0662, 636-6771122, and 636-394-1212.

143a
14. In 2012, Progressive appropriated the telephone number 636-677-1122 from Lawn Managers by
having it changed to Progressive’s control without the
consent of Lawn Managers or its principal.
15. The prefix “677” indicates a High Ridge, Missouri location for the number, and its use by Progressive is confusing to the public.
16. Progressive has also continued to list its
business on a number of websites under the name
“Lawn Managers” but with one or more of Progressive’s phone numbers, in a manner calculated to confuse the public, including the following listings as of
January 26, 2016:
1) https://my.datasphere.com/biz/lawn_managershome_garden_lawn_garden-manchester_mo12569528-311284 – Data Sphere
2) http://www.citysearch.com/profile/44247317/
o_fallon_mo/lawn_managers.html – City Search
3) http://www.dexknows_com/business_profiles/
lawn_managers_o_fallon1912945737 – Dexknows
4) http://www.mercharitcircle.com/business/Lawn.
Managers.636-281-1145 – Merchant Circle
5) https://www.yellowpagesgoesgreen.org/O’FallonMO/Lawn+Managers/271495 – Yellow pages
6) http://www.larggpro.com/progressive-lawnmanagers-in-saint-Iouis-mo-st-louis-county –
Large pro
7) http://ww-w.manchesterlawnservices.com/
reviews –

144a
8) http://www.b2byellowpages.com/companyinformation/840580179-lawn-managers.html –
B2B Yellow Pages
9) http://www.myyp.com/Ofallon,MO/LawnManagers/profile – Valley Yellow Pages
10) http://www.servicenoodle.com/lawn-managers-p-521441 – Service Noodle
11) http://www.usaypage.com/garden-centerscategory/missouri-o-fallon/lawn-managersp157599.html – USA Yellow Pages
12) http://couponskmov.com/Lawn_Managers/
12569528/355974.html – St. Louis Coupons
Channel 4 KMOV
13) http://trantr.com/business/11805137-lawnmanagers – Trantr
14) http://www.localsaver.com/ballwin-mo/homeservices/landscaping/lawn-managers-coupon?dsc=
BDSP&bizid=12569528&cpnid=311294
15) https://foursquare.com/v/lawri-managers/
535a868f11d2db5265f878d0
16) http://www.whitepages.com/business/
progressive-lawn-manager-ballwin-mo-2
17. On one additional website, Progressive
claims to have been in business since 1994 and on
Angie’s list since 2006; however, these are the dates
Lawn Managers was in business and on Angie’s list.
Progressive did not start in business until 2012.
(http://www.angieslist.com/companylist/us/mo/manchester/
progressive-lawn-managers-inc-reviews-269515.htm)

145a
18. Progressive’s vehicle signage, building
signage and websites (http://plmi.us/ and http://
progressivelawnmgmt.com/ and its Facebook page) are
confusingly similar to those of Lawn Managers, in that
Progressive displays the words “Lawn Managers” in
large type and the word “Progressive” in very small
type, creating the impression that the name of Progressive’s business is “Lawn Managers” instead of
“Progressive Lawn Managers”. Photographs of Progressive’s building signage are attached hereto as
Exhibit C, and a print-out from its website is attached
hereto as Exhibit D.
19. Defendant hands out coupons to its customers using the name “Lawn Managers” and containing
one of defendant’s phone numbers, which coupons are
almost identical to coupons which have been used by
plaintiff for many years. A copy of one of plaintiff ’s coupons is attached hereto as Exhibit E, and a copy of
one of defendant’s coupons is attached hereto as Exhibit F.
20. Upon information and belief, defendant has
registered and has control over the domain name and
URL “lawnmanagersinc.com,” and this domain name
redirects the user to the website of Progressive.
21. Defendant also owns the domain name and
URL “progressivelawnmgmt.com,” which directs the
user to the website of Progressive.
22. Plaintiff has expended substantial efforts
and funds over the years since 1979 to promote the
name “Lawn Managers” and to create name

146a
recognition and a favorable business reputation for the
name among consumers and customers.
23. Plaintiff previously took the position that it
would be acceptable for defendant to use the full name
“Progressive Lawn Managers” and to use the words
“Manager” or “Management” if and so long as defendant displayed the word “Progressive” in the same type
size and with the same prominence as the remaining
words, but plaintiff has been advised that the use of
the words “Manager” or “Management” in any form by
defendant would infringe plaintiff ’s trademark, and
defendant has refused to make any changes to its trade
dress, business name or marketing.
24. Defendant’s use of the words “Manager” or
“Management” in its trade dress, business name and
marketing, in connection with words denoting lawn,
garden and tree services, infringes plaintiff ’s trademarks.
25. Defendant’s use of plaintiff ’s trademark has
caused actual confusion among the public and customers.
26. As a result of defendant’s actions, plaintiff
has been damaged in an amount not presently ascertainable.
27. Plaintiff made written demand upon defendant to cease and desist its infringing conduct, and defendant has refused to do so.
28. Defendant’s infringement of plaintiff ’s trademarks, unless enjoined by this Court, has caused and

147a
is likely to cause confusion. mistake and deception of
consumers, prospective customers, and members of the
public. As a result, plaintiff has suffered and will suffer
irreparable injury to and dissipation of its reputation
and good will for which plaintiff has no adequate remedy at law.
COUNT I
Federal Trademark Infringement
(15 USC Section 1114)
29. Plaintiff incorporates by this reference the
allegations of paragraphs 1 through 28 above as if fully
set forth in this count.
30. Defendant’s actions demonstrate an intentional, willful and malicious intent to trade upon the
goodwill associated with plaintiff ’s trademarks.
31. Defendant’s actions constitute infringement
in violation of 15 USC Section 1114.
32. Plaintiff is being and will continue to be
damaged by defendant’s infringement, which causes a
likelihood of confusion and actual confusion among
customers and prospective customers as to the true
identity, source, affiliation or sponsorship of defendant’s infringing services.
33. Because of defendant’s infringement, plaintiff has suffered and will suffer damage to its business
reputation and goodwill, and loss of sales and profits

148a
that it would have made but for the unlawful acts of
defendant.
34. Plaintiff is entitled to permanent injunctive
relief, an accounting of defendant’s ill-gotten profits,
plaintiff ’s damages, and plaintiff ’s reasonable attorneys’ fees, costs and expenses, pursuant to 15 USC
Sections 1114, 1116 and 1117, and enhancement of
plaintiff ’s award of lost profits and trebling of plaintiff ’s damages pursuant to 15 USC Section 1117.
PRAYER FOR RELIEF
WHEREFORE, plaintiff Lawn Managers, Inc., respectfully prays for the following relief:
1. That the Court permanently enjoin defendant,
and any agent, officer, employee, representative, successor, assign or attorney of the defendant, and any
person acting for, with, by, through or under authority
of the defendant, from:
a. Using the name “Lawn Managers,” “Lawn
Management,” “Managers,” “Management” or any variation of “Manager” or “Management” in any manner
in connection with the marketing or operation of defendant’s business;
b. Using any words, terms or symbols which so
resemble the “Lawn Managers” trademark, plaintiff ’s
trademarked logo, or any names, marks or designations of plaintiff, as to be likely to cause confusion, mistake, deception, or misunderstanding in connection

149a
with the marketing, advertising, promoting, selling or
offering for sale of any goods or services;
c. Expressly or by implication representing that
defendant or its goods or services are those of or are
affiliated with, authorized, licensed, endorsed or sponsored by plaintiff including without limitation, defendant maintaining any advertisement or listing which
uses the name “Lawn Managers” with any of the phone
numbers used or controlled by defendant;
d. Selling any goods or services or engaging in
any actions which are likely to cause injury to plaintiff ’s business reputation, including but not limited to
use of plaintiff ’s protected trademarks;
e. Making or engaging in any false descriptions,
false designations, or false representations with respect to services of plaintiff; or
f. Otherwise infringing upon plaintiff ’s trademark or plaintiff ’s logo, or unfairly competing with
plaintiff in any manner whatsoever.
2. That defendant be ordered to remove all signage in which the words “Lawn Managers” or “Lawn
Management” is used, and to recall and destroy any
advertising materials in defendant’s actual or constructive possession using the words “Lawn Managers”
or “Lawn Management” in connection with defendant’s
business, and to cease and desist the sale or use of all
such items;
3. That defendant be ordered to immediately
contact all print or on-line advertisers, print or on-line

150a
telephone directories, Facebook, or any other marketing channel with which defendant or any principal or
agent of defendant has any listings or pages using the
word “Lawn Managers” or “Lawn Management” and to
correct each and every such listing, that defendant be
ordered to correct any incorrect metatag or meta data
in which defendant infringes upon plaintiff ’s trademark or agreed territory; and that defendant be ordered to terminate and not renew any of defendant’s
print directory listings using “Lawn Managers” or
“Lawn Management” effective immediately upon the
entry of this Court’s order;
4. That defendant be ordered to immediately
transfer ownership of lawnmanagersinc.com, and any
domain names or URLs under defendant’s ownership
or control using the words “Lawn Managers” or “Lawn
Management,” or “Manager” or “Management” in any
form, to plaintiff.
5. That defendant be ordered to terminate its fictitious name registration for “Lawn Managers.”
6. That defendant be compelled to account to
plaintiff for any and all profits derived by defendant
from the use of plaintiff ’s trademark.
7. That plaintiff be awarded a judgment against
defendant in the amount of all damages caused by the
infringing acts of defendant, including without limitation prejudgment interest on all such damages;
8. That because of defendant’s knowing and intentional use of plaintiff ’s trademark, that plaintiff ’s

151a
damages be trebled and the award of profits enhanced
as provided for by 15 USC Section 1117(a);
9. That defendant be ordered to pay to plaintiff
the costs and expenses of this action and plaintiff ’s
reasonable attorneys’ fees, pursuant to 15 USC Section
1117(a);
10. That plaintiff be awarded punitive damages
against defendant, because of defendant’s willful and
deliberate infringement of plaintiff ’s trademark and to
deter such conduct in the future; and
11. For such other and further conduct as the
Court deems just and proper in the circumstances.
/s/ Randy Zweifel
Randy Zweifel
STATE OF MISSOURI

)
) SS
COUNTY OF CITY OF ST. LOUIS )
On this 1st day of February , 2016, before me
appeared Randy Zweifel,
President of Lawn Managers, Inc., to me personally known, who, being duly sworn, did say that the
foregoing is true and correct to the best of his
knowledge, information and belief
/s/ Norah J. Ryan
Notary Public

152a
My commission expires:
July 19, 2017
[see verification of signed original document, filed
separately]
Respectfully submitted,
/s/ Norah J. Ryan
Norah J. Ryan MBE#32123,
EDMo 4240
Norah J. Ryan, Attorney at Law
Attorney at Law
3407 South Jefferson Ave.
St. Louis, MO 63118
314-241-9994
314-677-2089 (Fax)
Email: norah.ryan@att.net
Co-Counsel for Plaintiff
Annette P. Heller, Attorney at Law
Mo. Bar No. 26748, Fed. Ct. No. 3368
400 Chesterfield Center, Suite 400
Chesterfield, MO 63017
Tel. 314-469-2610
Fax 314-469-4850
E-mail: TMAttorneyHeller@aol.com
Co-Counsel for Plaintiff

